GSA's 51 NI ICANT MANAG M NT CHALL NGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and dis-
cussed in this semiannual report.

                                                       ~   ~               ~        ~           ~




                           m~11i1 mlil'81Imllil"~1 O~ IIM~mmlirfJ~1i
                             "            =   ~N   ~           ~'"                          ~




PROTECTION OF              GSA is responsible for protecting the life and safety                          2 -6
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

                           Simplified processes have                 <JU'""vC;'U   order     delivery     6-9,
                           time, yet competitive                                             followed     19-21,32
                           and opportunities may be                            for less costly services
                           and products.

iNFORMATION                Technology applications have increased exponentially                           10 -14
TECHNOLOGY                 as "E-Gov" is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

                           Management controls have been streamlined, resulting                           14-17
                           in fewer and broader       making it essential that
                           the remaining controls emphasized and consistently
                           followed.

HUMAN CAPITAL              GSA's corporate knowledge is eroding and efforts to                            17 -18
                           obtain requisite skills for the future are impeded. Better
                           recruitment and training programs are needed to
                           develop the 21 st century workforce.

                           GSA is        challenged to           quality space to                         No
                           Federal agencies using an aging, deteriorating inventory                       Reports
                           of buildings and facing critical budgetary limitations in                      This
                           its                program.                                                    Period
           Foreword




This is my first Semiannual Report to the Congress. Since my arrival at GSA
I have been impressed by the Agency’s broad range of responsibilities, and
by the people who carry them out. I have also been very much impressed by
the abilities and commitment of the people of the Office of Inspector General
(OIG), and their dedication to working with the Agency to bring about positive
change and to protect the integrity of GSA’s programs and operations.

Like everyone else, we in the OIG were shocked and deeply saddened by
the tragic events of September 11th. The terrorist attacks on the World Trade
Center and the Pentagon, along with subsequent events, have fundamentally
altered the environment in which we all work and live. The terrible loss of life
and massive destruction of property will not be forgotten. At the same time,
there has been reflected in the response of people at the scene and in the
weeks subsequent to the attacks, a level of courage, determination and
generosity that defines the human spirit at its best. I would like to take this
opportunity to commend the personnel of GSA and the OIG for their actions
in the wake of the terrorist attacks.

In both New York and Washington, GSA personnel immediately joined with
other Federal, state, and local officials to assist with rescue and recovery
efforts. Federal Protective Service officers, within minutes of the attacks and
without regard for their personal safety, began evacuating personnel from
government work spaces and assisting with search and rescue efforts. In the
days after September 11th, GSA effectively mobilized to provide over a
million square feet of temporary office space for displaced Federal
employees and for disaster relief teams from other Federal agencies.
Working with other agencies and contractors, telephone, data lines and other
telecommunication systems were restored in remarkably short order. GSA
personnel throughout the regions quickly provided disaster relief and
recovery organizations with needed supplies and equipment, including
protective gear for recovery workers, desks and office equipment, and trucks,
buses, and other vehicles to transport people and equipment where needed.
GSA should be congratulated for its leadership and truly exceptional efforts in
getting our affected Federal communities back in action.

I am particularly proud of how the OIG responded. Personnel from our New
York Office assisted with recovery efforts at the site. At the request of the
Federal Bureau of Investigation (FBI), Special Agents from New York and
Boston immediately began providing investigative assistance to the FBI
Terrorism Task Force. We are continuing to assist the FBI in these efforts.
Also, Special Agents from our other regions have volunteered to participate in
the Federal Air Marshal program, and will be serving interim duty onboard
commercial flights until the Air Marshal corps can be fully staffed. This kind
of response on the part of GSA and our office is reflective of the dedicated
and selfless service rendered by public employees and others in recent
weeks.
           Foreword




While tragic events like we have just experienced naturally tend to
overshadow normal day-to-day activities, this report, as required, reflects the
full range of key OIG activities for the 6 months from April through September
2001. As detailed within, this has been a very productive period for the OIG.
We have continued our efforts to address the major management challenges
facing GSA, as well as a number of other important programmatic and
operational issues.

Our activities produced over $32 million in savings from management
decisions on audit financial recommendations, and from civil settlements and
investigative recoveries. The Executive Summary which follows highlights
our work and directs the reader to more specific, detailed information within
the report.

As I begin my tenure as GSA’s Inspector General, I look forward to
continuing to build on the OIG’s traditions of excellence and service. I am
honored by and welcome the opportunity to work closely with GSA’s leaders
and the Congress to help ensure the effectiveness, efficiency, and integrity of
the Agency’s programs and operations.




Daniel R. Levinson
Inspector General
October 31, 2001
     Table of Contents
                                                                                          Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2001 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . .2

  Procurement Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17

Other Procurement and Related Activities . . . . . . . . . . . . . . . . . . .19

Other Reviews of GSA Programs . . . . . . . . . . . . . . . . . . . . . . . . .22

Partnering with GSA Management . . . . . . . . . . . . . . . . . . . . . . . .27

Prevention Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . .36

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . .40

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . .47

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .51

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .60

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .72

Appendix V–Report over 6 Months Old with No Management
 Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73

Appendix VI–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .74

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral


                                                                   Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     April 1, 2001 - September 30, 2001

                        Total financial recommendations                              $24,670,418

                        These include:

                        • Recommendations that funds be put to better use            $23,584,287

                        • Questioned costs                                            $1,086,131

                        Audit reports issued                                               83

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             322

Results Attained        Management decisions agreeing with audit
                        recommendations; civil settlements; and
                        court-ordered and investigative recoveries                   $32,129,882

                        Indictments and informations on criminal referrals                 23

                        Cases accepted for criminal prosecution                            23

                        Cases accepted for civil action                                     4

                        Successful criminal prosecutions                                   20

                        Civil settlements                                                   3

                        Contractors/individuals debarred                                   22

                        Contractors/individuals suspended                                  44

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            23




                                                                        Office of Inspector General v
                                       Fiscal Year 2001 Results




                                       During Fiscal Year (FY) 2001, OIG activities resulted in:

                                       • Over $102 million in recommendations that funds be put to better use
                                         and in questioned costs. If adopted, these recommendations ultimately
                                         result in savings for the taxpayer.

                                       • Management decisions to put funds of $98 million to better use based
                                         on OIG recommendations.

                                       • 198 audit reports that assisted management in making sound decisions
                                         regarding Agency operations.

                                       • 2 implementation reviews that tracked the progress of actions in
                                         response to internal audit reports.

                                       • $131 million in management decisions agreeing with audit
                                         recommendations; civil settlements; and court-ordered and
                                         investigative recoveries.

                                       • 219 new investigations opened and 216 cases closed.

                                       • 55 case referrals (93 subjects) accepted for criminal prosecution and
                                         17 case referrals (22 subjects) accepted for civil litigation.

                                       • 51 criminal indictments/informations and 43 successful prosecutions on
                                         criminal matters referred.

                                       • 5 civil settlements.

                                       • 38 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 75 contractor/individual suspensions and 28 contractor/individual
                                         debarments.

                                       • 366 legislative matters and 65 regulations and directives reviewed.

                                       • 2,161 Hotline calls and letters received of which 246 warranted further
                                         GSA action.




vi Semiannual Report to the Congress
                            Executive Summary




                          During this period, the OIG continued to direct its audit, investigative, and
                          evaluative resources to activities that address what we believe to be the
                          major management challenges facing the Agency. We provided a variety
                          of traditional services, including program evaluations; contract and
                          financial auditing; management control reviews; and investigative
                          coverage and litigation support in contract claims, civil fraud and
                          enforcement actions, and criminal prosecutions. We also continued to
                          provide professional assistance through enhanced consulting services,
                          alert reports designed to quickly inform management of potentially serious
                          deficiencies, and reviews of proposed legislation and regulations.

                          Management Challenges
                          We have highlighted a number of our reviews that address major
                          management issues facing GSA. In November 2000, we identified to
                          members of the Congressional leadership the most serious management
                          challenges currently facing the Agency. Some of these challenges are in
                          the areas of Federal facilities and personnel protection, procurement
                          activities, information technology, management controls, and human
                          capital. Our efforts during this period focused on the following:

                          Protection of Federal Facilities and Personnel
                          GSA is responsible for developing and managing a physical security
Security within Federal   program aimed at protecting Federal buildings and the people who work
       facilities         in and visit those buildings. Since the bombing of the Murrah Federal
                          building in Oklahoma City, the OIG has continuously assessed GSA’s
                          physical security program. We have issued over 25 audit and special
                          alert reports recommending corrective actions and improvements in all
                          aspects of the program. GSA management has been responsive to our
                          work and has implemented many program enhancements. However,
                          improving physical security is an ongoing challenge for GSA and for the
                          OIG – a challenge greatly magnified by the terrorist attacks of
                          September 11th, and subsequent events (pages 2-3).

                          As this reporting period ended, we were nearing completion of our
                          nationwide review of the implementation of GSA’s enhanced Federal
                          Security Risk Management Program, a survey process designed to
                          identify vulnerabilities of individual buildings and assess the adequacy of
                          measures taken to lower the risks. At the same time, we started to make
                          ready for a comprehensive “re-look” at the key elements of the overall
                          security program to determine what progress has been made in
                          addressing previously identified shortcomings and to assess how well the
                          security program is working as a whole.




                                                                          Office of Inspector General vii
                                           Executive Summary




                                         As part of our continuing efforts to help GSA better manage its public
 Safety risk prevention and              buildings program, this period we issued reports dealing with two
          detection                      additional safety related issues: asbestos management and fire
                                         prevention. GSA, through its Asbestos Management Program, is
                                         responsible for minimizing occupational exposure to asbestos in the
                                         buildings it controls. We observed the technical aspects (project specific)
                                         and reviewed the administrative aspects of asbestos management in the
                                         National Capital Region. We found that the project specific work, aimed
                                         at reducing identified or potential hazards and performed by professionals
                                         who understand the serious consequences of mishandling asbestos
                                         containing material (ACM), was well managed and controlled. However,
                                         we found that the administrative aspects of the program need
                                         improvement in order to provide proper procedures and controls to
                                         ensure health risks are minimized and full regulatory compliance is
                                         achieved. We found that a master list of buildings with known ACM was
                                         incomplete. It was also revealed that asbestos surveys, intended to
                                         inform contractors and building maintenance workers of the location and
                                         condition of ACM in a given building, are not updated to reflect the results
                                         of additional assessments and abatement work (page 4).

                                         We reviewed fire safety risk management in Public Buildings Service
                                         (PBS) facilities. Currently, the Agency’s fire safety and prevention
                                         activities primarily reside with the Fire Protection Engineers, located in
                                         10 of GSA’s 11 regional offices. These individuals are responsible for
                                         conducting building surveys, assessing the adequacy of fire safety
                                         systems, and conducting prevention training. We found fire safety and
                                         prevention within GSA is not a coordinated endeavor and numerous
                                         inconsistencies exist with regard to fire safety activities. Most facilities
                                         reviewed had some fire safety risk conditions that posed unacceptable,
                                         but correctable, risk to the property, its occupants, and visitors. In one
                                         case, we issued an Alert Report to management after observing
                                         numerous system and structural deficiencies in a facility housing
                                         2,500 Federal employees (page 5).

                                         Procurement Activities
                                         GSA’s Multiple Award Schedule (MAS) contracting program has grown
 MAS contracting program                 from sales of $5.6 billion in FY 1997 to $13.6 billion in FY 2000. As the
                                         MAS program has grown, certain program fundamentals, including pricing
                                         objectives and other pricing tools, have been marginalized. These
                                         fundamentals, which are set out by regulation, include the mandate for
                                         most-favored customer (MFC) pricing, the requirement to perform
                                         meaningful price analysis when awarding or extending contracts, and the
                                         use of preaward audits to assist in negotiating contracts. An OIG review
                                         revealed that the Federal Supply Service (FSS) was not consistently
                                         negotiating MFC pricing on the photocopier and IT schedules. This




viii Semiannual Report to the Congress
                        Executive Summary




                      occurred because FSS was not fully leveraging the government’s
                      aggregate buying power and because it often failed to properly evaluate
                      differing terms and conditions. We noted that on the photocopier
                      contracts alone, in the 1998 - 1999 time period, contracting officers
                      sustained only $3.8 million or about 2 percent of the $199 million in
                      recommended cost avoidances. We also found that over 50 percent of
                      the sample of the MAS contract extensions we reviewed were extended
                      without a meaningful or vigorous price analysis. Finally, we noted
                      significant decreases in the number of requests we received from FSS for
                      preaward audits, even as MAS sales skyrocketed. In FY 1990,
                      211 requested preawards were conducted, while in FY 2000, 23 were
                      requested and conducted (page 6).

                      We performed a limited review of the award and administration of a
                      vendor’s 5-year, $73 million MAS contract. The contracting officer (CO)
                      wrote that because he was able to obtain improved prompt payment
                      discounts, the prices provided by the vendor were deemed fair and
                      reasonable. We found no support for this conclusion by the CO. We also
                      learned that during negotiations, FSS contracting personnel accepted a
                      weakened version of a contract clause that in its standard version is
                      designed to afford the government pricing protection throughout long-term
                      contracts (page 8).

                      Information Technology
                      GSA is developing and implementing Electronic Commerce (EC) systems
                      in order to enhance the Agency’s buying and paying functions, improve
                      customer service, and support internal business operations. Because EC
                      systems are linked to the Internet, they face increased risks of
                      unauthorized use. Our review of nine selected EC systems found that
                      the absence of clear leadership within GSA has left the Services, Staff
                      Offices, and regions without guidance on how best to implement and
Electronic Commerce   ensure security for GSA’s expanding EC-based business operations. We
       systems        noted that two-thirds of the EC systems lacked completed security plans.
                      In addition, all of the security plans contained weaknesses because
                      critical system controls were not included. Finally, continuity and
                      contingency planning documentation was lacking in most of the security
                      plans that had been developed. Our recommendations included ensuring
                      the security plans for EC systems fully identify system security
                      requirements and necessary controls (page 10).

                      To meet the requirements of the Government Information Security Reform
                      Act, which focuses on the program management, implementation, and
                      evaluation aspects of Federal information systems security, we updated
                      information on the security status of seven of the systems that were
                      included in our earlier EC systems security review. We found that only




                                                                    Office of Inspector General ix
                                        Executive Summary




                                      two of the systems had an approved risk assessment, one had an
                                      approved security plan, and two had not begun any of these key security
                                      tasks (page 11).

                                      The Metropolitan Area Acquisition (MAA) Program was developed by
                                      GSA’s Federal Technology Service (FTS) as an innovative way to provide
                                      better value local voice and data telecommunications services to its
                                      Federal customers. The plan was to open a series of competitive
                                      procurements that would result in contract awards to more than one
Metropolitan Area Acquisition         vendor per city to ensure ongoing, task-order competition over the life of
          Program                     the contract. Phase I included the cities of New York, Chicago, and San
                                      Francisco. The procurement yielded multiple offers, but the winning
                                      variance was so great that FTS chose to make a single award in each
                                      city. We found that 17 months after Notice to Proceed, the conversion of
                                      FTS’ users to the MAA Program ranged from only 7 percent to
                                      38 percent. The experience in the Phase II cities we examined
                                      (Philadelphia, Buffalo, and Boston) was similar. We provided suggestions
                                      for improvement in a number of areas, including customer service and
                                      contractor relations (page 13).

                                      Management Controls
                                      Property Management Centers (PMCs) fulfill the needs and requests of
                                      government agencies that occupy space in Federally-owned and leased
                                      buildings. Our review of the PMC located in Springfield, Illinois revealed
    Property Management               several deficiencies related to its procurement and contract administration
       Centers controls               functions. We found examples where GSA did not receive services
                                      contracted and paid for and construction projects were delivered late.
                                      The areas reviewed involved service contracts, construction contracts,
                                      temporary duty travel expenses, and personal services contracts. We
                                      offered recommendations to strengthen the management controls over
                                      the procurement and contract administration functions (page 14).

                                      GSA is in the process of replacing its aging financial accounting system,
                                      with a new fully integrated financial management system known as
                                      Pegasys. In previous semiannual reports, we cited our concerns that the
                                      scope, the timelines for implementation, and the costs associated with the
    Financial management              modernization project, were all increasing at a rapid and unabated pace.
                                      Subsequently, measures were taken to refocus the project’s scope to
                                      concentrate on replacement of the core accounting system, with the
                                      related systems to be upgraded under separate modernization efforts
                                      later. This period we examined the contract vehicles being used to have
                                      system engineers and programmers transform the commercial-off-the-
                                      shelf (COTS) software into Pegasys, a financial software system tailored
                                      to meet GSA’s unique business requirements as well as comply with the




x Semiannual Report to the Congress
                             Executive Summary




                           newest governmentwide accounting standards. We noted that, as
                           currently structured, the contractor has few incentives to complete work
                           tasks economically or promptly. Our recommendations encouraged
                           revamping the current agreement to build in incentives beneficial to both
                           parties (page 15).

                           During this reporting period, the OIG pursued 51 investigations involving
                           alleged abuse of the GSA SmartPay charge card program. The GSA
                           SmartPay program is the principal vehicle for Federal agencies to acquire
    GSA SmartPay           charge card services in order to procure goods and services for
                           government offices, travelers, and fleet vehicles. The investigations
                           resulted in two administrative actions against employees, four arrests, two
                           convictions, and restitution of nearly $150,000 (page 17).

                           Human Capital
                           GSA, as with all Federal agencies, faces the difficult management
                           challenge of acquiring a workforce with the skills and talents needed to
                           meet the demands of the 21st century. To help GSA meet this challenge,
                           we performed a benchmark review of other Federal agencies and several
                           private organizations as to how they were assessing their progress in
                           accomplishing this objective. We encouraged GSA to follow the course
                           set by others who have first performed detailed self-assessment studies
                           that serve as the foundation for further analyses and action on specific
                           human capital issues such as recruiting, retention, succession planning,
                           and skills development (page 17).

                           Other Reviews of GSA Programs
                           GSA’s Natural Gas Program, administered by the Agency’s National
                           Center for Utilities Management, offers Federal facilities an opportunity to
                           realize cost savings by purchasing utilities from independent contractors
                           rather than a local utility company. PBS awards contracts to independent
     Energy review         suppliers, who transport the gas to a local utility company over various
                           interstate pipelines. The local utility company delivers it through its own
                           distribution system to an end-user facility. GSA reported savings of over
                           $16 million for FY 2000. After a review of the program, we offered
                           recommendations to improve the billing and collecting processes
                           (page 23).

                           PBS needs accurate information concerning the revenues and expenses
                           incurred for each property it manages. At the request of GSA
                           management, we reviewed the allocation methods used by PBS to
PBS accounting for costs   properly assign costs to specific individual properties. Our review
                           determined costs were properly classified, consistently recorded, and
                           charged to the appropriate buildings in the regions (page 24).




                                                                            Office of Inspector General xi
                                          Executive Summary




                                        Other Procurement and Related Activities
                                        During this period, we worked with the Department of Justice to obtain
                                        nearly $1 million in civil settlements from several contractors for potential
                                        false claims and contract violations on matters related to providing
                                        copying equipment from prohibited foreign sources, providing inaccurate
       Fraud recoveries                 pricing information on computer hardware and software products which
                                        led to higher government prices, and overbillings for systems furniture
                                        and computer cabling (pages 19-20). Also, as a result of OIG
                                        investigations, we were able to obtain restitution of over $660,000 for
                                        fraudulent activities, including duplicate billings for fuel storage tanks and
                                        for fictitious orders for computer equipment using a government charge
                                        card (pages 20-21).

                                        Other Criminal Investigations
                                        As a result of a major OIG-led investigation into corruption in connection
                                        with building construction and repair/alteration contracts, a GSA employee
                                        received a criminal sentence and five contractors pled guilty to charges of
                                        bribery and accepting gratuities. Additionally, five GSA employees and
                                        five contractors are still awaiting court action (page 33).

                                        Two separate investigations resulted in the convictions of GSA employees
                                        for abusive sexual contact. In one case, a GSA maintenance work
                                        inspector pled guilty to charges of abusive sexual contact with female
                                        employees who worked for a GSA contractor. In the other case, a GSA
                                        mechanic was sentenced after being convicted of abusive sexual contact
                                        against a female co-worker (page 33).

                                        Summary of Results
                                        The OIG made over $23 million in financial recommendations to better
                                        use government funds; made 322 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 238 legislative and
                                        regulatory actions; and received 1,074 Hotline calls and letters. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $32 million. (See page v for a summary of this period’s
                                        performance.)




xii Semiannual Report to the Congress
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, assessment of management
                        controls, and financial and compliance audits. The office also conducts
                        external reviews in support of GSA contracting officials to ensure fair
                        contract prices and adherence to contract terms and conditions. The
                        office additionally provides advisory and consulting services to assist
                        Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review and Congressional liaison functions.

                      • The Internal Evaluation Staff, a multidisciplinary staff that plans and
                        directs field office appraisals and conducts internal affairs reviews and
                        investigations.

                      • The Office of Administration, an in-house staff that provides
                        information technology systems, budgetary, administrative, personnel,
                        and communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in
                      Auburn and Cleveland.

Staffing and Budget   As of September 30, 2001, our on-board strength was 272 employees.
                      The OIG’s FY 2001 budget is $34.4 million.




                                                                       Office of Inspector General 1
                                      Management Challenges




                                      Each year since 1998, we have identified and shared with Congress and
                                      senior management what we believe to be the major challenges facing
                                      the Agency. This year, we made recommendations in several major
                                      areas that GSA management needs to take steps to address. The OIG is
                                      committed to helping to address these issues; it is our mission to assist
                                      management in improving Agency operations.

                                      Protection of Federal Facilities and Personnel
                                      Providing a safe, healthful, and secure environment for over 1 million
                                      workers and the visitors to over 8,300 owned and leased Federal facilities
                                      nationwide is a major multifaceted responsibility of GSA. In recent years,
                                      the increased risks from terrorism have greatly expanded the range of
                                      vulnerabilities traditionally faced by building operations personnel. The
                                      complexities involved in establishing a broadly integrated safety/security
                                      program make this a major challenge.

                                      Since 1996, the OIG has consistently cited the protection of Federal
                                      facilities and personnel as one of the key management challenges facing
                                      GSA. The terrorist attacks of September 11, 2001, and subsequent
                                      events have only too harshly demonstrated the importance of this issue
                                      and have put it in a new context. The challenge is a difficult one: the
                                      need to ensure appropriate and effective security to protect Federal
                                      facilities, employees, and the public, while also ensuring that our
                                      buildings and institutions remain open and accessible in keeping with the
                                      character of a free society.

                                      The OIG has been continuously involved in the assessment of the
                                      physical security programs managed by GSA designed to protect Federal
                                      buildings and those who work in or visit these facilities. Subsequent to
                                      the 1995 bombing of the Alfred P. Murrah Federal Building in Oklahoma
                                      City, the Department of Justice led a task force that developed a new set
                                      of security standards for Federal facilities. Since then, GSA has worked
                                      to implement these standards. The OIG has assisted in this effort by
                                      performing, in a systematic manner, detailed reviews of the major
                                      elements of the overall security program.

                                      An effective security program requires that each element be well
                                      designed and operate as intended. Weakness in a single part materially
                                      increases the risk that the entire protective system will fail; the system will
                                      only be as strong as its weakest element. The key elements of the
                                      Federal Protective Service (FPS) buildings security program are:

                                      • a contract guard force, supported by the FPS law enforcement officer
                                        corps;




2 Semiannual Report to the Congress
                      Management Challenges




                      Protection of Federal Facilities and Personnel (continued)

                      • an FPS criminal investigative corps, responsible for investigating crime
                        and, more importantly in this context, serving as the focal point for
                        receiving building security-related intelligence from the various law
                        enforcement agencies, and for managing the Agency’s intelligence
                        sharing program;

                      • systems of security/screening equipment and protective devices
                        designed to detect and prevent the introduction of weapons,
                        explosives, or unauthorized personnel; and

                      • vulnerability assessments designed to evaluate building security risks
                        and develop means to mitigate risks.

                      Security Within Federal Facilities
                      Since 1996, the OIG has issued more than 25 audit and special alert
                      reports addressing various aspects of the physical security program. The
                      results, especially in our earlier efforts, frequently reported serious
                      systemic operating shortcomings. GSA management has been
                      responsive to our findings and has implemented many corrective actions
                      and enhancements.

 While there have     Each year, we have extended our coverage of additional major aspects of
                      the security program. We are conducting a national review examining
 been substantial     how FPS is implementing the new risk assessment methodology
improvements, the     designed to adequately address potential threats to Federal facilities.
 security program     When finished with this risk assessment audit, we will have completed
                      major audits of all aspects of GSA’s physical security program.
  still faces many
challenges, greatly   This by no means will complete our work. While we have seen
 magnified by the     substantial improvements in the overall security program since we started
                      our evaluation work, both we and GSA management are aware that the
  recent terrorist    program still faces many challenges – challenges that have been greatly
        events.       expanded in nature and dimension by the recent terrorist events.

                      The physical security program is an ongoing priority for GSA
                      management and our office alike. We look forward to continuing to work
                      with program officials to help fashion performance measures and control
                      and tracking systems, and to otherwise address any identified problems
                      or develop enhancements to help improve the security of our public
                      buildings. The overriding goal for management must be to make the
                      process of reviewing performance, responding to deficiencies, and
                      monitoring conditions a seamless part of its ongoing operations and
                      practices.




                                                                      Office of Inspector General 3
                                      Management Challenges




                                      Protection of Federal Facilities and Personnel (continued)

                                      Safety Risk Prevention and Detection
                                      This period, we reviewed two areas that present additional kinds of safety
                                      risks.

                                      Asbestos Management
                                      Asbestos, once a commonly used substance found in many building
                                      materials, is now known to release fibers into the air that can cause
                                      significant health dangers. GSA is responsible for minimizing
                                      occupational exposure to asbestos in the buildings it controls. In the
                                      National Capital Region, nearly 200 government-owned or leased
                                      buildings have known asbestos-containing material (ACM). Through the
                                      Asbestos Management Program (Program), GSA manages asbestos in
     Responses to
                                      place where it is in good condition, and promptly takes abatement action
   specific asbestos                  where asbestos material is damaged or subject to disturbance by routine
      hazards are                     operations or planned renovations.
  effective, but some                 We observed the technical aspects and reviewed the administrative
       program                        aspects of asbestos management in the Region. The technical aspect
      management                      represents the work carried out by the industrial hygienists, abatement
                                      contractors, and other technical professionals who understand the serious
   issues need more                   health consequences of mishandling asbestos-containing material and
       attention.                     employ their expertise to minimize the risk of exposure to workers and
                                      tenants. This work is typically project-specific and appears to be well-
                                      managed and controlled. The administrative aspect is concerned with
                                      procedures and controls that govern the general Program objective of
                                      managing asbestos in place, and provides assurance that overall health
                                      risks have been minimized and that full regulatory compliance has been
                                      achieved. Here, we believe improvements are needed.

                                      The Program master list, which should include all buildings in the Region
                                      which have had ACM, whether or not abated, was incomplete. Some
                                      buildings that have been substantially abated, and even several that
                                      currently have known ACM, had been dropped from the inventory. We
                                      concluded that a historical record of all buildings that have ever been
                                      identified as containing asbestos should be maintained so that a full
                                      reconciliation between the asbestos program area of responsibility and
                                      the complete GSA building inventory is possible.

                                      Asbestos survey reports should be used to inform contractors and
                                      building maintenance workers of the location and condition of all identified
                                      ACM in a given building. However, we found that the majority of these
                                      surveys are not updated to reflect the results of additional assessments
                                      and abatement work.



4 Semiannual Report to the Congress
Management Challenges




Protection of Federal Facilities and Personnel (continued)

Although the majority of building managers believed their maintenance
workers had received site-specific training, the workers surveyed did not
believe they had received this type of training. A building-specific training
program that incorporates the ACM survey could increase workers’
asbestos awareness, emphasize appropriate work practices, and
strengthen program safety.

In our September 6, 2001 report, we offered a series of recommendations
to help improve Program accountability and provide the measurable,
reliable data needed to demonstrate an effective management-in-place
strategy.

The Acting Regional Administrator, National Capital Region, agreed with
the recommendations included in our report. The audit is still in the
resolution process.

PBS’s Fire Safety Risk Management
GSA endeavors to provide a functional, safe, and healthful work
environment for the more than 8,300 Federally-owned and leased
facilities it manages. An effective fire safety program would help achieve
this objective. GSA must promote safety policies to assess risk, make
decision-makers aware of risk, and act promptly and appropriately in
response to risk.

PBS’s record in the prevention of loss of life due to fires is commendable,
with no fatalities during the period January 1990 through September
2000. However, during this same period, PBS properties experienced
19 major fires, resulting in an estimated $32 million in damage to real and
personal property. The most serious of these was an electrical fire in a
leased facility that caused $16 million in property damage. The extensive
damage was attributed, in part, to the lack of fire sprinklers in the area
where the fire started.

The PBS Central Office was responsible for directing and coordinating
Agency-wide fire safety policies and procedures prior to 1995. Currently,
the Agency’s fire safety and prevention activity principally resides in its
regional offices, with Fire Protection Engineers (FPEs) as the primary
focal point. There are 22 FPEs dispersed throughout 10 of GSA’s
11 regional offices, with one region having had no FPEs since 1994.
These individuals perform design reviews, conduct building safety
surveys, assess the adequacy of fire safety systems, conduct fire safety
and prevention training, and consult with regional officials on fire safety
matters.




                                                  Office of Inspector General 5
                                      Management Challenges




                                      Protection of Federal Facilities and Personnel (continued)

                                      Fire safety and prevention within GSA is no longer a coordinated
                                      endeavor; there are numerous inconsistencies in the regional fire safety
                                      activities. The average number and square footage of buildings for which
                                      each FPE is responsible varies extensively. The time FPEs allocate to
                                      significant fire risk prevention and detection activities also varies across
                                      the regions. Due to the very large numbers of buildings for which some
                                      FPEs are responsible, along with other duties, GSA can have only limited
                                      assurance that fire safety risks are being promptly identified and
                                      mitigated.

                                      We found that most of the facilities reviewed had some fire safety risk
                                      conditions that posed unacceptable, but correctable, risk to the property,
     Most buildings                   its occupants, and visitors. In the most serious case, we issued an Alert
  reviewed had some                   Report to management after observing numerous system and structural
                                      safety deficiencies at a leased facility housing 2,500 Federal employees.
   unacceptable, but                  We noted the absence of building-wide automatic sprinklers, smoke
   correctable, safety                detectors, and visual fire alarms; a lack of emergency power for fire
        hazards.                      pumps and elevators; and inadequate stairwell egress. All of these
                                      factors posed risks that needed to be acted upon promptly. In response
                                      to the report, management is taking action to expedite the installation of
                                      an automatic sprinkler system and is investigating the installation of a
                                      partial smoke detection system.

                                      In our September 18, 2001 report, we recommended that the
                                      Commissioner, Public Buildings Service, implement a comprehensive fire
                                      safety management system that focuses on a national fire safety strategy.
                                      We are awaiting management’s response.

                                      Procurement Activities
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews
                                      of these activities to ensure that the taxpayers’ interests are protected.
                                      MAS Contracting Program
                                      GSA’s Multiple Award Schedule (MAS) contracting program, which is
                                      administered by FSS, has grown significantly in recent years. It has
                                      become one of the major vehicles through which government agencies
                                      purchase commercial products and services. In FY 1997, the MAS
                                      program generated $5.6 billion in sales; in FY 2000, sales under the
                                      program had grown to $13.6 billion.




6 Semiannual Report to the Congress
                      Management Challenges




                      Procurement Activities (continued)

                      A review conducted by the OIG examined how well FSS contracting
                      officers (COs) are adhering to MAS pricing fundamentals. These
    Contracting       fundamentals, which are set out by regulation, include the mandate for
  officers are not    most-favored customer (MFC) pricing so as to ensure volume pricing is
consistently using    achieved; the requirement to perform meaningful price analysis when
                      awarding or extending contracts; and the use of preaward audits to assist
 available tools to   in negotiating contracts. Our review concluded that these program
     negotiate        fundamentals have been marginalized. The resulting report had three
  favorable MAS       findings:

  contract prices.    • FSS is not consistently negotiating MFC prices. We reviewed contract
                        negotiations on three different schedules – photocopier, information
                        technology (IT), and furniture – awarded by FSS in the 1998-1999 time
                        period. We found that, of the 11 copier contracts reviewed, COs
                        achieved MFC pricing in only 1 negotiation; of the 14 IT contracts
                        reviewed, COs achieved MFC pricing in 4 negotiations; and, of the
                        6 furniture contracts reviewed, COs achieved MFC pricing in
                        5 negotiations. Our review indicated that COs failed to achieve MFC
                        pricing principally because they failed to target commercial pricing at a
                        level commensurate with government sales; they rejected better
                        commercial pricing rather than evaluating and quantifying differing
                        terms and conditions; and they too readily accepted vendors’
                        unsubstantiated or inaccurate information regarding pricing practices.
                        Preaward audits of the contracts in the study recommended cost
                        avoidances of $309.6 million. Overall, COs actually negotiated only
                        $18.2 million, or 5.9 percent, of this amount in savings through pricing
                        improvements under these contracts. On the photocopier contracts,
                        COs sustained only $3.8 million, or about 2 percent, of the $199 million
                        in recommended cost avoidances. This compares to a 71.4 percent
                        sustained rate achieved on photocopier contracts for the period
                        FY 1990-1997.

                      • Many MAS contract extensions are accomplished without adequate
                        price analysis. A variety of regulatory and other provisions require that
                        COs, at the time of extension, determine that prices are fair and
                        reasonable. COs must document the analysis performed and rationale
                        used to determine that exercise of the option to extend was in the best
                        interest of the government. The OIG review found that, of the
                        80 contracts reviewed, 44 of those were extended without a meaningful
                        or vigorous price analysis. In these 44 cases, we found no
                        documentation indicating that a CO had asked for updated pricing
                        information (or obtained a statement that pricing had not changed
                        since initial award), performed market research, or requested a
                        preaward audit to evaluate the offer.



                                                                      Office of Inspector General 7
                                      Management Challenges




                                      Procurement Activities (continued)

                                      • Preaward audits are not being used effectively to negotiate better MAS
                                        prices. Preaward audits are provided to COs in advance of
                                        negotiations to assist COs in negotiating favorable pricing, and, for
                                        MAS contracts, typically focus on a vendor’s commercial sales
                                        practices. We found that the number of preaward audits requested for
                                        MAS contract actions has decreased significantly in recent years, even
                                        as total sales under MAS contracts have increased dramatically. In
                                        FY 1990, 211 preawards were conducted. In FY 1997, the year GSA
                                        issued a General Services Acquisition Regulation rule emphasizing
                                        preawards, only eight were requested and performed. In FY 2000, a
                                        year during which MAS sales amounted to $13.6 billion, just
                                        23 preaward audits for contracts with $694 million in projected sales
                                        were requested and conducted.

                                      We reported our findings and recommended actions to FSS management
                                      officials on August 24, 2001. The review is an OIG position paper.
                                      Accordingly, it is not subject to the formal audit resolution process.

                                      MAS Contract
                                      We performed a limited review of the award and administration of a
                                      vendor’s 5-year, $73 million MAS contract with GSA for photographic
                                      equipment and supplies, which revealed that the CO wrote that because
                                      he was able to obtain improved prompt payment discounts, the prices
                                      provided by the vendor were deemed fair and reasonable. We found no
                                      support for this conclusion by the CO. We also learned that during
                                      negotiations, FSS contracting personnel accepted a weakened version of
                                      a contract clause that in its standard version is designed to afford the
                                      government pricing protection throughout long-term contracts.

                                      In our July 31, 2001 report, we recommended that the Chief,
                                      Photographic and Support Branch, Office and Photographic Equipment
                                      Division, ensure that the contract clause required by GSA’s procurement
                                      regulations is included in the vendor’s upcoming corporate contract.

                                      Management officials agreed with our recommendation in the report. The
                                      audit is still in the resolution process.

                                      Procurement Center Follow-up Review
                                      We conducted a follow-up review of the operations of FSS’s Hardware
                                      SuperStore located in the Heartland Region. In a 1999 audit of this
                                      organization, previously known as the Hardware and Appliances Center,
                                      we identified major risks to fulfillment of the Center’s mission to provide




8 Semiannual Report to the Congress
                     Management Challenges




                     Procurement Activities (continued)

                     high quality and reasonably priced products in a timely manner. We
                     reported that COs did not adhere to important procurement directives,
                     price analyses, and negotiating techniques in awarding MAS contracts.
Efforts to improve
contracting have     This period’s follow-up review showed that while FSS has developed
                     adequate contract inventory systems and increased management
  yet to alleviate   emphasis on staff training, concerns remain regarding fair and reasonable
   MAS pricing       pricing on MAS contracts. The SuperStore’s acquisition personnel still
    concerns.        tend to place significant reliance on unverified contractor-submitted
                     commercial sales practices information in the determination of fair and
                     reasonable pricing for MAS contract awards and modifications. Although
                     file documentation sometimes indicated there were critical pricing issues
                     to be considered, there was no indication these issues were raised by
                     contracting officials during negotiations.

                     Our September 28, 2001 report recommended that the FSS implement a
                     strategic risk assessment process to evaluate the impact on the
                     government if competitive pricing and terms were not obtained.

                     Management agreed with our recommendations in the report. The audit
                     is still in the resolution process.

                     FTS’s Millennia Program
                     In 1999, the Federal Technology Service (FTS) established the Millennia
                     Program, a multiple award contract vehicle designed to provide
                     customers with software engineering, communications, and systems
                     integration services. Individual Millennia task orders are for large,
                     complex projects, with a minimum threshold of $10 million and a duration
                     of more than 1 year. GSA had awarded 23 Millennia task orders through
  The Millennia      March 2001, with a value of approximately $2.25 billion.
Program does not
                     We reviewed this Program because of concerns that other GSA programs
 duplicate other
                     are providing similar services and may be more appropriate to meet the
 FTS contracting     needs of customer agencies. We concluded that the Millennia task
  programs and       orders issued by GSA were used for the types of projects for which the
                     Program was designed and were more suitably structured to provide the
 meets customer
                     requested services than other similar GSA contracting programs.
     needs.
                     Additionally, we found that customer agencies are satisfied that GSA is
                     providing acceptable solutions at reasonable prices. The customers
                     indicated satisfaction with the quality of services they receive from both
                     GSA and the Millennia contractors.

                     Our August 21, 2001 report contained no recommendations and is not
                     subject to the audit resolution process.


                                                                      Office of Inspector General 9
                                       Management Challenges




                                       Information Technology
                                       GSA, like most agents of government, is growing increasingly reliant on
                                       automated information systems, the Internet, and all forms of
                                       telecommunications. With this explosive growth has come a marked
                                       increase in the numbers of willful disruptions to these systems from
                                       criminals, terrorists, or vandals. The protection of systems, resources,
                                       and privacy is essential, thus making IT security one of the highest
                                       priorities.

                                       Information Systems Security
                                       The application of information technology (IT) has become increasingly
                                       prevalent within the government and impacts all aspects of business
                                       operations. GSA relies on its automated information systems to perform
                                       its mission and manage its operations. Many of these systems store
                                       sensitive information, such as personal employee data and contractors’
                                       proprietary data. Good IT security practices are essential in today’s
                                       business environment. As GSA increasingly interconnects the Internet
                                       and its own Intranet, security risks also increase significantly.

                                       Electronic Commerce Systems Security
                                       GSA is developing and implementing Electronic Commerce (EC) systems
                                       in order to enhance the Agency’s buying and paying functions, improve
                                       customer service, and support internal business operations in a changing
                                       and increasingly competitive business environment. Conducting business
                                       through EC requires the exchange of information within government, and
                                       between the government and private industry or individuals. Because
                                       they are linked to the Internet, EC systems face increased security risks
                                       of unauthorized use, disclosure, or modification of the information in
                                       those systems.

                                       While GSA is performing an important leadership role in Federal efforts to
     Security for                      develop and implement EC security technologies governmentwide, and
                                       has established the Office of Electronic Commerce, we found no
      Electronic                       organizational unit in place to lead the Agency’s internal EC initiatives and
     Commerce                          security. Our review of nine selected EC systems found that the absence
  systems has not                      of a lead unit within GSA has left the Services, Staff Offices, and regions
                                       without guidance on how best to implement and ensure security for
   kept pace with                      GSA’s expanding EC-based business operations. An overall unified
  GSA’s increasing                     approach for planning and implementing GSA’s internal EC security
   dependence on                       solutions is needed to ensure that security requirements for EC systems
                                       have been adequately developed and that additional security measures
        them.                          are considered for these sensitive and mission-critical systems.

                                       GSA’s Chief Information Officer has issued an Information Technology
                                       Security Policy for the Agency and has established a new Center of



10 Semiannual Report to the Congress
Management Challenges




Information Technology (continued)

Expertise (COE) for IT security to assist with systems security, but the
CIO’s policy does not provide specific guidance for ensuring adequate
security for EC systems. With our review of the nine selected EC
systems we found that risks with system interconnections, transmission of
sensitive data, and unauthorized access were not managed consistently
and according to requirements for IT security. At the time of our review,
GSA guidance lacked clear direction for determining risks with EC system
interconnection, information sharing, and access authorization and
management.

Two-thirds of the GSA EC systems that we reviewed lack completed
security plans, which are needed as a first step in understanding and
managing risks, establishing security controls, and assigning key security
roles and responsibilities. All of the security plans we reviewed contained
weaknesses in that certain critical system controls were not included.
Continuity and contingency planning documentation, critical to
maintaining essential operations and protecting data in the event of
system disruption, was lacking in most of the security plans that have
been developed. Security plans for some EC systems did not clearly
address personnel security controls. Because the greatest harm or
disruption to a computer system often results from individuals who have
authorized access to the system, it is important that personnel security
controls, such as adequate background checks, security clearances for
access to sensitive data, and separation of duties are documented in
security plans.

In our June 21, 2001 report, we recommended that GSA’s Chief
Information Officer ensure that the security plans for EC systems fully
identify system security requirements and necessary controls.

The CIO concurred with the recommendations in the report. The audit is
still in the resolution process.

Since our review, the CIO has tasked the new COE to provide a more
substantial leadership role in ensuring EC systems security. Steps taken
by the COE to improve security for GSA’s systems were reflected in our
Government Information Security Reform Act review, highlighted below.

Information Security Program
We performed a review of GSA’s Agency-wide Information Security
Program and controls for select systems, as required by the Government
Information Security Reform Act (GISRA) of October 2000. GISRA




                                                Office of Inspector General 11
                                       Management Challenges




                                       Information Technology (continued)

                                       focuses on the program management, implementation, and evaluation
                                       aspects of security for Federal information systems. As such, our audit
                                       focused on the Information Technology Security Program within GSA’s
                                       Office of the Chief Information Officer (CIO). We also updated
                                       information on the security status of select EC systems in the Office of
                                       the Chief Financial Officer (CFO), Public Buildings Service, Federal
                                       Supply Service, and the Federal Technology Service. Specifically, we
                                       reviewed seven of the nine systems that were included in our earlier EC
                                       systems security review, described above.

                                       GSA’s CIO has issued an IT security policy aimed at: (1) assigning
                                       responsibilities for implementing, managing, and maintaining the GSA IT
 GSA does not have                     Security Program; (2) ensuring the availability, integrity, and confidentiality
      a cohesive                       of IT resources and information processed; and (3) achieving appropriate
   Agency-wide IT                      levels of protection against threats and vulnerabilities. The policy states
                                       that the CIO is responsible for preparing, approving, and promulgating
  security program,                    Agency-wide IT security policies that require coordination with the
 but is working on it.                 Agency’s CFO and the Critical Infrastructure Assurance Officer. However,
                                       GSA’s IT Security Program has not provided a process for the three
                                       management officials to work together to develop specific measures of
                                       performance to ensure that Agency-wide IT security goals are being met.

                                       The recently formed IT Security Center of Expertise, within the Office of
                                       the CIO, is leading efforts within the Agency to plan, develop, and
                                       maintain an Agency-wide IT security program. It has recently begun to
                                       track the IT security status of 42 major systems across GSA. However,
                                       processes to ensure that the CIO’s recommended security procedures
                                       and control techniques are followed have not yet been established in an
                                       Agency-wide IT Security Plan for GSA. For the seven EC systems that
                                       we reviewed, we evaluated progress for key security tasks, including risk
                                       assessments, certification and accreditation, security plans, and system
                                       testing and evaluation. We found that only two systems had an approved
                                       risk assessment, only one of the systems had an approved security plan,
                                       and two of the systems had not begun any of these key security tasks.

                                       We also analyzed IT security information captured in the Information
                                       Technology Investment Portfolio System (I-TIPS), which provides an
                                       automated format for GSA’s Services and Staff Offices to provide capital
                                       planning and IT investment information. Our analysis of GSA’s FY 2002
                                       data showed that 36 of the 108 IT initiatives listed in I-TIPS were
                                       considered mission critical; however, only 16 of these initiatives identified
                                       specific funding allocated to IT systems security.




12 Semiannual Report to the Congress
                    Management Challenges




                    Information Technology (continued)

                    The Center of Expertise has launched an effort to create an Agency-wide
                    security awareness, training, and education program based on guidance
                    developed by the National Institute of Standards and Technology (NIST).
                    GSA should conduct a comprehensive assessment of the knowledge,
                    skills, and abilities of information systems security professionals within the
                    Agency and establish a formal training curriculum.

                    Our review is included as part of the Agency’s budget submission to the
                    Office of Management and Budget. As the review was required under
                    GISRA, our September 18, 2001 report contained no formal
                    recommendations and is not subject to the audit resolution process.

                    Metropolitan Area Acquisition Program
                    GSA’s Federal Technology Service (FTS) provides local voice and data
                    telecommunications services to Federal agencies nationwide and strives
                    to create better value services for its customers through aggregate
                    purchasing power and innovative procurements. One of the innovations
                    was the Metropolitan Area Acquisition (MAA) Program, conceived as a
                    means to take advantage of the benefits created by the
                    Telecommunications Act of 1996.

                    FTS’s strategy was to open a series of metropolitan or city-based
                    competitive procurements that ideally would result in contract awards to
  FTS’s plan to     more than one vendor per city to ensure ongoing, task-order competition
                    over the life of the contract. The Phase I pilot included the cities of New
 convert users to
                    York, Chicago, and San Francisco, each with a number of service
the MAA Program     providers who could compete for contract awards. The procurement
 within 9 months    yielded multiple offers, but the winning variance was so great that FTS
                    chose to make a single award in each city. The winning vendor was
 may have been      offering potential savings of as much as 80 percent over the existing
overly ambitious.   government rates. Transition of phone service from the incumbent local
                    exchange carrier to the vendor proceeded slowly, and management
                    asked us to assess the factors influencing implementation speed.

                    We found that although FTS had established a 9-month transition goal,
                    17 months after Notice to Proceed, the conversion of FTS’s users to the
                    MAA Program ranged from only 7 to 38 percent. The experience in the
                    Phase II cities we examined (Philadelphia, Buffalo, and Boston) was
                    similar.

                    Our review also found that the expectations of FTS, the contractors, and
                    customers, as reflected in the transition plans, might have been overly
                    ambitious. A 9-month transition goal was perhaps not appropriate as the




                                                                     Office of Inspector General 13
                                       Management Challenges




                                       Information Technology (continued)

                                       measure of program implementation success, and falling short of that
                                       goal should not be looked upon as a program failure. The newly
                                       deregulated environment is complex and unsettled. FTS could not have
                                       foreseen all influences impacting the Program’s implementation speed.
                                       However, there are factors over which FTS has influence. We provided
                                       suggestions for improvement in a number of areas, including:

                                       Customer service. Customers asked for a wider array of contract
                                       choices. Customer preferences ranged from some who would like to deal
                                       directly with the vendors to some who would like FTS to provide services
                                       from the earliest stage of defining the contract requirements all the way
                                       through complete implementation. Several customers also expressed
                                       their interest in having FTS personnel communicate with them more often
                                       regarding project status.

                                       Contractor relations. FTS can temper implementation inefficiencies by
                                       improving aggregate purchasing and communication. Our review
                                       suggested it would be beneficial to solicit for additional contractors in
                                       single award cities, allocate minimum revenue guarantees program-wide,
                                       specify roles and responsibilities for each task, negotiate service delivery
                                       intervals by task, assign local FTS project coordinators, require transition
                                       plan updates, and consolidate orders by location. FTS has taken steps to
                                       increase the number of vendors vying for awards.

                                       We were able to provide FTS a number of suggested improvements to
                                       the MAA Program for its consideration. Our April 11, 2001 report
                                       contained no formal recommendations and is not subject to the audit
                                       resolution process.

                                       Management Controls
                                       Multiple management controls have been replaced, through reinvention
                                       initiatives, by fewer and broader controls, making it essential that the
                                       remaining controls be emphasized and consistently followed.

                                       Property Management Center
                                       GSA has the responsibility to provide fully-serviced space to house
                                       government agencies in Federally-owned and leased buildings. Property
                                       Management Centers (PMCs), located throughout the country, fulfill the
                                       needs and requests of tenant government agencies. In general, PMC
                                       activities include procurement, asset management, and contract and
                                       lease administration.

                                       This period, we completed our review of the PMC located in Springfield,
                                       Illinois, where we noted several deficiencies. As further detailed below,


14 Semiannual Report to the Congress
                   Management Challenges




                   Management Controls (continued)

                   the PMC needs to improve its procurement and contract administration
                   functions.
     Property
  Management       • Service Contracts. No evidence or documentation was found to
 Center needs to     indicate that building elevators received 5-year load tests or
                     independently prepared semiannual safety inspections. Service
   improve its       contractors did not develop and implement the required quality control
procurement and      programs for 16 of the 17 performance-based service contracts
     contract        included in our audit sample. Finally, the government did not receive
                     the quality of cleaning required by the eight janitorial contracts we
 administration      reviewed.
    functions.
                   • Construction Contracts. Over 25 percent of the construction projects
                     reviewed were delivered at least a month late. PMC personnel often
                     did not perform thorough and accurate final inspections of construction
                     work before authorizing payment. In some cases, the PMC allowed
                     construction to begin before having a contract in place, and two final
                     inspection reports showed the work had been completed before the
                     contracts were awarded.

                   • Temporary Duty Travel Expenses. Travel regulations were breached
                     when the PMC employees were not reimbursed for travel expenses.
                     PMC employees stayed in leased apartments for periods exceeding
                     12 months, contrary to Federal Travel Regulations and possibly
                     causing them to incur income tax liabilities.

                   • Personal Services Contracts. The PMC has entered into personal
                     services contracts between the government and a contractor for
                     temporary labor services. In general, Federal Acquisition Regulation
                     provisions prohibit personal services contracts.

                   Our September 5, 2001 report offered recommendations to strengthen
                   the management controls over the procurement and contract
                   administration functions.

                   The Regional Administrator generally agreed with the recommendations
                   in the report. The audit is still in the resolution process.

                   Pegasys Contract Administration
                   GSA’s Office of the Chief Financial Officer (CFO) is currently in the
                   process of replacing the Agency’s aging core financial management
                   system, the National Electronic Accounting and Reporting (NEAR)
                   system. NEAR is mainframe-based, expensive to maintain, and not
                   easily adapted to change. Additionally, it does not support the United
                   States Government’s Standard General Ledger or provide other
                   capabilities required by mandated financial standards.

                                                                  Office of Inspector General 15
                                       Management Challenges




                                       Management Controls (continued)

                                       The initial modernization plan called for a 3-year implementation process
                                       at a cost of around $35 million. As the Agency began to recognize that
                                       many other major financially-related systems were also in need of
                                       modernization, these were brought under the umbrella of the Pegasys
                                       upgrade program. Growth of requirements and associated costs were so
                                       extensive that by the time we issued our first Alert Report, in September
                                       2000, implementation plans had stretched to 6 years and cost estimates
                                       had climbed to over $130 million. Subsequently, the Pegasys project has
                                       been re-scoped and again is refocused on implementing a new core
                                       accounting system. The current major implementation objective is to
                                       have the Standard General Ledger operational by October 2002.

                                       A commercial-off-the-shelf (COTS) financial management product is the
                                       foundation of the new system. Purchase of the basic software was
                                       through a fixed price contract. No system readily meets all of GSA’s
                                       needs or the newer governmentwide financial standards. Accordingly,
                                       GSA has had to contract with the systems software vendor to provide
                                       extensive technical support and modifications under specific task
  While Pegasys has                    requests.
      experienced                      Payment to the vendor for support services is based on hours worked by
  significant delays,                  the contract personnel to fulfill a request, at established hourly rates
  the CFO has taken                    contained in the contract, rather than for having provided a specific
                                       service or completed a defined task that meets established performance
   positive steps to                   quality standards for a specific fee. There are no incentives in the
  gain better control                  contract to control the number of hours used or to expedite completion of
        over the                       tasks. Adopting performance-based contracting methods would provide
                                       the means to ensure that the appropriate performance quality level is
   development and                     achieved and that payment is made only for services that meet contract
    implementation                     standards.
        process.
                                       The CFO is working with the Office of Acquisition Policy to determine
                                       ways of introducing performance-based contracting methods into the
                                       Pegasys contracting process, and is committed to incorporating positive
                                       and negative incentives, where possible, into the FY 2002 task orders
                                       with the contractor.

                                       The CFO has taken positive steps to gain better control over the
                                       development and implementation process. The CFO has engaged
                                       government consultants and commercial sources to assist in the
                                       identification of steps that can be taken to gain better control over the
                                       cost and timeliness of the project.

                                       In our July 31, 2001 report, we offered recommendations to the CFO
                                       regarding performance-based contracting and incorporating positive and


16 Semiannual Report to the Congress
Management Challenges




Management Controls (continued)

negative incentives into the task orders with the contractor. A responsive
management action plan was provided for implementing the report’s
recommendations.

Government Charge Card Abuse
The GSA SmartPay program is the principal vehicle for Federal agencies
to acquire charge card services. These charge cards are used by
agencies to facilitate the procurement of goods and services for
government offices, travelers, and fleet vehicles. As of August 2001,
there were nearly 3 million cardholders throughout the Federal
Government.

During this reporting period, the OIG conducted 51 investigations
involving alleged abuses of the GSA SmartPay charge card program.
These investigations are being conducted cooperatively with card issuers,
Federal agencies (including the Secret Service and FBI), as well as state
and local law enforcement agencies. In an effort to help prevent abuses,
we have also made presentations to government and industry
representatives and GSA employees related to the SmartPay program
and its potential vulnerabilities.

The allegations in these administrative and criminal investigations include
employees not complying with card usage guidelines and making
personal purchases, as well as other fraudulent activity by government
employees and others. Two-thirds of the complaints were received from
Agency employees or managers; the rest were reported through the OIG
Hotline or developed proactively by the OIG.

Our investigations have resulted in two administrative actions against
employees, four arrests, two convictions, and restitution of nearly
$150,000. Our investigations indicate that access to and regular
supervisory review of specific transactions would minimize Agency and
card issuer risk and losses. We have presented our findings to GSA
management and continue to work with them to develop methods to
address concerns. The OIG has shared its experience with other Offices
of Inspector General to help initiate similar programs and investigations.

Human Capital
Like many Federal agencies, GSA has an aging workforce and faces
significant potential loss of institutional knowledge in the coming years.
Since 1993, GSA has been downsizing and has focused on restructuring
its financial and business efforts. The Agency workforce was reduced




                                               Office of Inspector General 17
                                       Management Challenges




                                       Human Capital (continued)

                                       from 20,000 to 14,000 between 1993 and 1999. Much of the downsizing
                                       was accomplished through early retirement and buyout authority, and by
                                       filling job vacancies sparingly.

                                       Since 1998, the OIG has consistently cited human capital management
                                       as one of the major management challenges facing GSA. Additionally,
                                       Congress and the General Accounting Office (GAO) have identified
                                       human capital management policies as a missing link in the government’s
                                       performance management framework. GAO added this issue to its list of
                                       major management challenges facing Federal agencies. Human capital
                                       planning and organizational alignment, leadership continuity and
                                       succession planning, and recruitment and retention of staff with the right
                                       skills were identified as key areas needing attention. GAO suggested
                                       that each Federal agency perform a self-assessment of its workforce
                                       planning strategies to identify current and future human capital needs to
                                       pursue its mission.

                                       To establish a benchmark regarding whether GSA’s efforts are enough to
                                       acquire the skills and talent needed to respond to a rapidly changing,
                                       increasingly competitive business environment, we looked at other
                                       Federal agencies’ assessment reports and at private and public sector
                                       information concerning human capital management. We reported that
                                       GSA has begun the process of ensuring an adequate workforce, and the
                                       individual Services and Staff Offices have taken a number of separate
                                       steps to address their human capital requirements. While the actions of
                                       the Services and Staff Offices advance the workforce planning process
                                       within GSA, the Agency needs a unified strategy to ensure that it has
                                       highly talented professionals to meet the challenges needed for the
                                       21st century.

                                       We encouraged GSA to proceed with the human capital assessment
                                       suggested by GAO. We advised management of the actions taken by
                                       several Federal agencies in conducting their workforce self-assessments.
                                       The assessments not only demonstrate senior level commitment, but also
                                       map out, in an objective fashion, the agencies’ human capital
                                       requirements to meet current and future demographic and performance
                                       challenges. While the experiences of these organizations suggest that
                                       successful examination of human capital may be as difficult as it is
                                       important, the assessments take less than a year to complete and they
                                       respond to a growing sense that more needs to be done to address
                                       human capital needs. Because this was a benchmark review, we made
                                       no formal recommendations and our July 31, 2001 report is not a part of
                                       the audit resolution process.




18 Semiannual Report to the Congress
              Other Procurement and Related Activities




                      GSA is responsible for providing working space for almost 1 million
                      Federal employees. GSA, therefore, acquires buildings and sites,
                      constructs facilities, leases space, and also contracts for repairs,
                      alterations, maintenance, and protection of government-controlled space.
                      GSA also manages the transfer and disposal of excess and surplus real
                      and personal property and operates a governmentwide service and
                      supply system. To meet the needs of customer agencies, GSA contracts
                      for billions of dollars worth of equipment, supplies, materials, and services
                      each year. We conduct reviews and investigations in all these areas of
                      activity to ensure that the taxpayers’ interests are protected.

Significant OIG       Nearly $1 Million in Civil Recoveries
Accomplishments       During this period, the government entered into 3 settlement agreements
                      in which companies agreed to pay a total of nearly $1 million to resolve
                      their potential civil liabilities under the False Claims Act. These
                      agreements, negotiated by representatives of the Department of Justice
                      and the GSA OIG, reflect the ongoing efforts of the OIG to pursue cases
                      involving procurement fraud and other practices that threaten the integrity
                      of the government’s procurement process. Highlights of cases follow:

                      Civil Settlements
                      • On April 4, 2001, Savin Corporation and Ricoh Corporation, which
                        owns Savin, paid a total of $400,000 to resolve their potential liability
                        under the civil False Claims Act for violating the Trade Agreements Act.
                        In 1997, Ricoh and Savin voluntarily disclosed to the government that,
                        contrary to what they had disclosed to GSA during negotiations of two
                        Multiple Award Schedule (MAS) contracts and one basic ordering
                        agreement for the sale of copying machines, they were providing some
                        copiers to Federal customers that were made by prohibited sources.
                        An OIG investigation confirmed that some of the copiers sold to the
                        government were manufactured in the People’s Republic of China, and
                        others were manufactured in the Republic of Korea. At the time the
                        relevant sales occurred, those nations were not approved sources
                        under the Trade Agreements Act.

                      • On September 27, 2001, Presidio Corporation (Presidio), a Florida
                        corporation located in Lanham, Maryland and a dealer of computer
                        hardware and software, agreed to pay $273,000 to settle the
                        government’s allegation that it violated the False Claims Act in the
                        course of its performance of an MAS contract to provide computers,
                        equipment, and software produced by a variety of manufacturers. The
                        OIG investigation and audit was initiated as the result of an OIG




                                                                      Office of Inspector General 19
                         Other Procurement and Related Activities




                                         Hotline complaint. A former employee alleged that Presidio had
                                         misrepresented the cost of the products that it was selling to the
                                         government. The OIG determined that the company had failed to
                                         disclose accurately the prices it paid for products and that the company
                                         had not disclosed credits it had received from one of its manufacturers.

                                       • In an agreement signed on August 28, 2001, Commercial Moving and
                                         Rigging, Inc. (CMR) agreed to pay $250,000 to settle its potential civil
                                         False Claims Act liability. The government alleged that CMR overbilled
                                         GSA for installation of systems furniture and telephone and computer
                                         cabling under two blanket purchase agreements (BPAs) and two time-
                                         and-materials contracts. An OIG investigation found that CMR had
                                         billed GSA for the services of an administrative employee at the much
                                         higher hourly rates of a cabler, billed GSA for unnecessary computer
                                         aided design drawings, and falsely inflated the number of hours it
                                         charged GSA for employee services. The BPAs and the contracts had
                                         been sole-sourced to CMR with the assistance of a high-ranking GSA
                                         official, who pled guilty in August 2000 to one count of bribery for
                                         receiving a $17,000 payment from CMR for construction work on the
                                         official’s home, in exchange for directing work to CMR.

                                       SCAT, Inc. and Its President Sentenced for
                                       Submitting Fraudulent Claims
                                       An investigation determined that SCAT, Inc., a fuel tank supplier, was paid
                                       $545,161 based on duplicate invoices and shipping documents. The
                                       invoices were based on a requisition to provide 12 large fuel storage
   Corporate officer                   tanks to the Arkansas Army National Guard. Resubmission of the
     given prison                      requisition by SCAT to GSA caused a second set of false purchase
     sentence for                      orders to be generated. The president of the company invoiced GSA for
                                       two sets of storage tanks and was paid based on false invoices and
    submitting false                   shipping documents submitted to GSA.
   invoices to GSA.
                                       On September 26, 2001, SCAT and its president were sentenced in U.S.
                                       District Court for submitting false claims to the U.S. Government and
                                       converting payments for the company’s own use. The president was
                                       sentenced to 15 months in prison without parole, to be followed by
                                       3 years supervised release. He and his company were ordered to pay
                                       restitution of $545,161 for their role in submitting false claims to the
                                       government. The company was placed on 5 years corporate probation.
                                       Debarment referrals are pending.




20 Semiannual Report to the Congress
Other Procurement and Related Activities




        Computer Company Owner Sentenced for
        Conspiracy
        A joint GSA and U.S. Postal Inspection Service undercover operation
        documented that a computer equipment company accepted fictitious
        orders for goods and services never provided. An undercover agent
        arranged payment for these orders with a government charge card. The
        government payments to the company were then split with the
        undercover agent.

        On October 18, 2000, both owners of the company pled guilty to
        conspiracy to commit mail fraud. On June 13, 2001, one of the owners
        was sentenced in U.S. District Court to 12 months incarceration, given
        3 years supervisory probation, and ordered to pay $120,000 in restitution.
        A sentencing date has not been set for the other owner.

        Job Corps Employee Imprisoned for Credit Card
        Fraud
        On March 1, 2001, GSA Fleet Management reported possible credit card
        fraud to the OIG. A joint investigation by GSA, the U.S. Department of
        Labor, the local police department, and the State’s Attorney’s Office
        disclosed that a Job Corps employee used a government credit card to
        purchase gas debit cards. The employee either sold the debit cards for
        50 percent of their face value or returned the cards for a cash refund.

        On September 4, 2001, the employee was sentenced in U.S. District
        Court to 6 years imprisonment and ordered to pay restitution for unlawful
        use of a government credit card. It was agreed that restitution would be
        made on all counts of the underlying indictment. The employee was a
        convicted felon and was ruled in violation of parole for a prior arson
        conviction. Based on this criminal conduct, he was also sentenced to
        serve the remaining 2 years of that conviction.




                                                       Office of Inspector General 21
                                Other Reviews of GSA Programs




                                       GSA is a central management agency that sets policy in such areas as
                                       Federal procurement, real property management, and
                                       telecommunications. GSA also manages diversified government
                                       operations involving buildings management, supply facilities, real and
                                       personal property disposal and sales, data processing, and motor vehicle
                                       and travel management. Our audits examine the efficiency,
                                       effectiveness, and integrity of GSA programs and operations, and result
                                       in reports to management. Our internal audits program is designed to
                                       facilitate management’s evaluation and improvement of control systems
                                       by identifying areas of vulnerability and providing informational and
                                       advisory services.

Significant OIG                        FSS’s Marketing Program
Accomplishments                        The Federal Supply Service (FSS) has developed a marketing program
                                       designed to consistently and efficiently identify markets and customer
                                       opportunities, understand what influences its customers, raise Federal
                                       employees’ awareness of FSS, and establish customer relationships to
                                       develop long term sales commitments. The marketing program includes
                                       a network of regional marketing managers, customer service directors,
                                       the National Customer Service Center, and personnel in FSS’s acquisition
                                       centers and business lines.

                                       Under the Multiple Award Schedules (MAS) Program, which had sales of
    More detailed                      over $13 billion in FY 2000, FSS enters into contracts with commercial
                                       firms to provide supplies and services at stated prices for given periods of
   information on                      time. Customer agencies place orders with the contractor and deliveries
  customer buying                      are made directly to the customer. FSS Marketing has been promoting
  habits could lead                    the MAS program through customer education, mass marketing, and
                                       other initiatives.
       to new
    opportunities.                     To enhance its effectiveness, the FSS marketing network has been
                                       transforming itself into a customer-oriented organization that collects and
                                       analyzes customer information in order to market within the Federal
                                       community. However, a primary obstacle in reaching this goal has been
                                       the lack of information regarding customers and sales of products and
                                       services through the MAS program. FSS surveys customers and collects
                                       data from other sources, but because FSS is not involved in the order,
                                       sale, delivery, or billing under these contracts, its ability to capture
                                       information about its customers’ buying habits or the products and
                                       services these customers purchase is limited. To obtain a more
                                       comprehensive view of its customers, FSS needs to obtain transactional
                                       data on MAS customers and sales and develop a system to store,
                                       maintain, and analyze this information.




22 Semiannual Report to the Congress
                    Other Reviews of GSA Programs




                        A project by FSS’s Office of Contract Management may provide the most
                        accurate and complete data on MAS customers. A study to improve the
                        reviews of contractors’ practices for reporting sales and paying the
                        Industrial Funding Fee recommends that FSS obtain sales transaction
                        data in electronic format. If FSS can overcome resistance from
                        contractors to provide this data, it will be better able to identify its current
                        customers and their needs.

                        In our September 13, 2001 report to the Commissioner, Federal Supply
                        Service, our recommendations included that FSS Marketing work to
                        obtain electronic sales data and other customer information from MAS
                        contractors.

                        The Commissioner generally agreed with our recommendations in the
                        report. The audit is still in the resolution process.

                        Utility Procurements-Natural Gas Program
                        Approximately 190 Federal facilities nationwide participated in GSA’s
                        Natural Gas Program as of January 2001. The Program, administered by
                        the Agency’s National Center for Utilities Management (NCUM) located in
                        Vancouver, Washington, offers Federal facilities an opportunity to realize
                        cost savings by purchasing utilities from independent contractors rather
                        than the local utility company. Currently, natural gas is provided by two
                        suppliers having NCUM contracts. PBS awards contracts to independent
                        suppliers, who transport the gas to a local utility company over various
GSA’s Natural Gas       interstate pipelines. The local utility company delivers it through its own
                        distribution system to an end-user facility. GSA reported savings of over
Program produced        $16 million for FY 2000. The Program provides other benefits to
 savings of over        participants, such as reviewing contractor invoices to ensure that
  $16 million in        quantities and rates are correct, assuring that proper amounts of gas are
                        purchased on behalf of the facilities to avoid penalties for storage of
    FY 2000.            excess gas, and advising customers when it is economically
                        advantageous to switch to another form of energy. The Program funds its
                        operations through an administrative fee added to the rates charged to
                        customers by the contractors.

                        Our review showed that while NCUM is doing an adequate job in seeking
                        competition and ensuring that suppliers are invoicing for the correct
                        volume of gas, improvements are needed in the following areas:

                        • Agreements are negotiated monthly; however, factors such as specific
                          pipelines, and delivery and receipt zones are not identified and agreed
                          to prior to gas delivery, even though these impact the rates billed.
                          These additional customer costs need to be identified and established
                          in advance of delivery.




                                                                           Office of Inspector General 23
                                Other Reviews of GSA Programs




                                       • In our sample verification of billed rates, we found a number of errors,
                                         both overcharges and undercharges. In one case, the customer was
                                         overcharged about $150,000. NCUM relies on the supplier to bill
                                         accurately and only spot-check rates. A more effective review process
                                         is needed.

                                       • The administrative fee is included in the rates charged to the facilities
                                         and collected by the contractors. NCUM must calculate the total
                                         amount of fees collected by the contractor and request GSA’s Finance
                                         Office to bill the contractor for those fees. As of April 2001, NCUM had
                                         not taken steps to initiate the billing for the administrative fees due
                                         from one of the suppliers for deliveries made from August 2000
                                         through March 2001. These fees totaled $392,000. The second
                                         supplier had not been billed for approximately $33,000 because the
                                         contractor did not submit the invoices necessary to calculate the fee.

                                       • NCUM relies on unverified savings data submitted by the suppliers.
                                         NCUM needs to verify program savings independently of the supplier.

                                       In our September 27, 2001 report to the Director, Energy Center of
                                       Expertise, we offered recommendations to improve the billing and
                                       collecting processes of the Natural Gas Program.

                                       Management generally agreed with the recommendations in the report.
                                       The audit is still in the resolution process.

                                       PBS Accounting for Costs
                                       GSA’s Public Buildings Service (PBS) provides fully-serviced space to
  While prior audits                   house approximately 1.1 million employees of more than 100 Federal
                                       organizations. The financing mechanism for PBS activities is the Federal
   have shown that                     Buildings Fund, which is replenished by rental income and
      PBS did not                      reimbursements. The added focus on linking budget to performance
     consistently                      measures and standards has increased the need for reliable cost
                                       accounting data to effectively manage PBS’s operations.
  assign costs, PBS
    management is                      In order to make sound business decisions, PBS management needs
     committed to                      accurate information regarding the revenues and expenses incurred for
                                       each property in its care. Previous audits had found that PBS historically
    reducing costs                     was inconsistent in its ability to properly assign costs to specific individual
  and improving the                    properties. PBS management requested that we retest their allocation
   accuracy of cost                    methods to assess whether improvements had been effected.
        data.                          For FY 2000, PBS had direct expenses of $4.6 billion. Payments to
                                       lessors for leased space accounted for $2.9 billion of that amount. The




24 Semiannual Report to the Congress
                     Other Reviews of GSA Programs




                         remaining $1.7 billion was made up of several cost categories, including
                         operations and maintenance, and protection. Our review encompassed
                         the direct costs in these two categories in each of five regions, totaling
                         approximately $340 million.

                         We found that the operations and maintenance costs and the protection
                         costs were properly classified, consistently recorded, and charged to the
                         appropriate buildings in the regions we reviewed. Variations in both
                         organization and practices from region to region appeared to have no
                         significant impact on the reliability of data reported. Finally, we noted a
                         management commitment to reducing costs and improving the accuracy
                         of cost data as part of PBS’s efforts to meet its performance measures.

                         Our September 26, 2001 report contained no formal recommendations
                         and the audit is not subject to the resolution process.

                         Leasing of Temporary Archival Space
                         In response to a Hotline complaint, we performed a limited review of a
                         leasing action to obtain specialized archival storage space for former
Leasing action for       President Clinton’s papers. It was alleged that GSA was paying annual
                         rent far in excess of the going market rate in that particular area and that
 former President
                         the cost of the tenant improvements to the property was high.
Clinton’s archival
space was proper.        Our review indicated that GSA determined that the only potential
                         government facility in that area had significantly less rentable square
                         footage than was required. Also, this building is on the National Historic
                         Register, which limits tenant renovations and correction of known fire
                         safety deficiencies.

                         GSA obtained sufficient responses from the business community to have
                         reasonable competition and selected the low bidder. The basic rental
                         rate for this leased property compared favorably with the local market
                         rate, and includes the cost of the tenant improvements, amortized over
                         the first 3 years of the lease term. The cost of the enhancements was
                         higher than normal due to construction crews working overtime to meet
                         the short timeframe for completion.

                         We noted no major discrepancies in the leasing process. As such, our
                         report of September 26, 2001 contained no recommendations.

                         Overseas Supply Activities
                         In a collaborative effort with the Department of Defense (DoD), FSS
                         administers 21 Express Stores operating on military installations in
                         Europe and Asia. These stores are walk-in facilities that offer a wide
                         range of office supplies, computer accessories, tools, and household




                                                                          Office of Inspector General 25
                                Other Reviews of GSA Programs




                                       products. FSS in two regions, independent of each other, acted upon
                                       opportunities to increase GSA’s presence and potential sales growth,
                                       while providing DoD with an experienced government supplier. While
                                       DoD provides the space, personnel, and freight expenses, GSA is
                                       responsible for the inventory, the point-of-sale system, and providing
                                       expertise in marketing and inventory management. GSA’s Mid-Atlantic
                                       Region supplies 10 European stores and the Pacific Rim Region supplies
                                       11 Pacific stores. Express Store sales were approximately $25 million in
                                       FY 2000, and were expected to reach about $35 million in FY 2001.
  Express Stores
   meet a supply                       Business Case Analyses (BCAs) are generally prepared by supply depot
 need, but could be                    personnel as a prerequisite for approval and opening of a store, and must
                                       be reviewed by FSS’s Finance Office. The BCAs justify the need for the
 administered more                     store based on sales projections and available cost estimates. We found
    effectively.                       that BCAs were not done for three stores and were only partially
                                       completed for several others. While a store may not prove to be
                                       profitable, which a BCA might have indicated, we believe that it might still
                                       be a good business proposition for other program or strategic reasons.
                                       However, FSS should follow standard procedures and proceed with
                                       cautious deliberation when opening a new store.

                                       While our review focused on the establishment of Express Stores, we
                                       also noted concerns over some basic control issues regarding inventory
                                       counting. The Pacific Rim Region is deviating from traditional double-
                                       count inventory counting procedures by using an electronic scanner and
                                       a single count. Unless individual items are out of tolerance by more than
                                       $400, a second count is not performed. In addition, store employees are
                                       counting their own inventory, contrary to GSA policy and the widely
                                       accepted internal control of segregation of duties. While we took no
                                       exception to the use of the electronic scanner/single count approach, we
                                       felt that out-of-tolerance levels were too high and that an independent
                                       party should conduct the counts.

                                       Finally, we noted that sensitive items in one store needed to be properly
                                       secured. Highly desirable items such as Palm Pilots, digital cameras,
                                       pocketknives, film, etc., were only separated from a contractor’s space by
                                       a tarp.

                                       In our September 27, 2001 report, we offered recommendations to
                                       improve control over the Express Stores’ inventories. Management
                                       concurred with the recommendations in the report. The audit is still in the
                                       resolution process.




26 Semiannual Report to the Congress
Partnering with GSA Management




    Professional Assistance Services
    We continued to offer a variety of professional services to GSA
    management, including consulting services and advisory reviews. We
    also continued our participation on Agency improvement task forces,
    committees, and working groups. Our efforts help the Agency become
    more efficient and effective by providing management with timely
    information, often at its request, to improve decision-making, program
    outputs, and mission accomplishment. These services are provided in
    addition to our more traditional services.

    Consulting Services. These OIG efforts are initiated by Agency officials
    and are designed to provide management with quick responses to
    specific program concerns. Requesting officials both define and limit the
    scope of the consulting project. Information objectively developed by the
    OIG is provided for the interpretation and discretionary use of the
    requesting official in a true partnering relationship with management.
    Consulting service products are distributed directly only to the requesting
    official and contain observations and alternatives for consideration in lieu
    of formal audit recommendations. Some recent efforts are highlighted
    below:

    • Procuring Repair Services for Vehicles. GSA’s Fleet Management
      Center operates a national Accident Management Program located in
      two regions. Agency management in one of those regions requested
      our assistance to determine whether their procurements of repair
      services for vehicles involved in accidents were in accordance with
      applicable Federal Acquisition Regulation guidelines. We found that
      the procurements were generally in compliance with guidelines and
      that the files were appropriately documented. We noted, however, that
      GSA was relying on vendors to provide the scope and estimates for
      repair work that will cost under $2,500, and those vendors were
      frequently selected to perform the repairs. We provided this
      information to program management in our July 26, 2001 report.

    • RWA Program Initiatives. In an effort to improve its business
      practices, management introduced the Reimbursable Work
      Authorization (RWA) Tracker system as a tool for standardizing RWA
      record keeping. The regional pilot was designed to provide a common
      tracking vehicle for reimbursable agreements, a consistent reporting
      format to customer agencies, and a more efficient reconciliation
      process with GSA’s National Electronic Accounting and Reporting
      system. Management asked for our assessment of the performance of
      the new database system to help it decide whether to adopt Tracker as
      the preferred regional tracking system.




                                                    Office of Inspector General 27
                               Partnering with GSA Management




                                         We reported to management on July 16, 2001 that Tracker has the
                                         potential to offer a consistent regional reporting system, and to provide
                                         end users reliable and reconcilable processing for RWA administration.
                                         However, enhancements to the current software version are needed to
                                         resolve issues identified by users. Regional information technology
                                         support personnel stated that these modifications can be accomplished
                                         if adequate resources become available.

                                       Advisory Reviews. These OIG services are designed to develop
                                       information useful to Agency managers who are responsible for making
                                       decisions and initiating program improvements. Typically, we identify
                                       benchmarks and analyze best practices used in both private industry and
                                       government agencies to determine if GSA is delivering comparable
                                       products and services as effectively as other provider entities. Advisory
                                       reviews are usually initiated by the OIG, although management may
                                       request them as well. Our reports provide observations and conclusions,
                                       without recommending corrective actions. The following highlights one
                                       such review accomplished during this period:

                                       • General Management and Administration (GM&A) Overhead
                                         Costs. Prior to FY 1991, GSA’s overhead costs were funded by
                                         Congressional appropriations. Now, most of the overhead costs are
                                         included in GSA’s Working Capital Fund and are allocated to internal
                                         GSA customers, who recover these costs as part of the prices charged
                                         for the products and services provided to the Agency’s external
                                         customers.

                                         GSA’s internal organizations obtain administrative support services
                                         through the Agency’s Staff Offices. They are precluded from obtaining
                                         the services from other sources and do not have the means to value
                                         the effectiveness and efficiency of these services. We compared
                                         GSA’s approach to controlling its overhead costs to methodologies
                                         used in five other Federal agencies. We selected these five Federal
                                         organizations because of their participation in the Franchise Fund Pilot
                                         Project, an initiative under the Government Management and Reform
                                         Act of 1994.

                                         Our benchmark agencies were found to incorporate greater use of
                                         fiscal discipline. This was particularly true for those programs that had
                                         to compete for customers and recover all costs. In addition, we found
                                         the other organizations use performance measures, including customer
                                         satisfaction surveys, and activity-based costing to help managers
                                         improve the efficiency and effectiveness of operations.




28 Semiannual Report to the Congress
Partnering with GSA Management




      The Chief Financial Officer is currently working to link administrative
      support performance measures with the budget and plans to
      incorporate them into the budget cycle.

      Our observations and suggestions were presented to management in
      our report of September 25, 2001.

    Task Forces, Committees, and Working Groups. The OIG provides
    advice and counsel to GSA while monitoring ongoing Agency initiatives.
    Our representatives advise management at the earliest possible
    opportunity of potential problems, help ensure that appropriate
    management controls are provided when reinventing Agency systems,
    and offer possible solutions when addressing complex financial issues.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our new initiatives within the Federal
    community. We nevertheless maintain our ability to independently audit
    and review programs. Our participation in the task forces is typically as a
    non-voting advisory member. We maintain a strict policy of excluding
    staff members who have served on developmental task forces from
    subsequent audits of the same subject areas.

    Some areas in which we have been involved this period include:

    • Charge Card Usage Work Group. During the reporting period, the
      OIG has worked with CFO representatives to develop an audit guide to
      evaluate cardholders’ and authorizing officials’ compliance with
      purchase and travel card requirements. One audit was completed and
      two others are in progress, following this guide. In addition, our office,
      GSA components of the work group, and Citibank representatives
      recently met to identify concerns and develop program, audit, and
      investigative methods for addressing the concerns.

    • Fleet Users Work Group. The OIG continued to help facilitate the fuel
      tax refund process for Federal agencies. As a result of the combined
      efforts of Agency and OIG staff, GSA received approximately $600,000
      in refunds for the period November 1998 through March 2001. This
      initiative should continue through FY 2002.

    • RWA Committee in the National Capital Region. The OIG
      participates in periodic meetings of this committee, which assesses
      national and regional issues impacting financial or operational aspects
      of Reimbursable Work Authorizations.




                                                    Office of Inspector General 29
                               Partnering with GSA Management




                                       • PBS Building Delegation Program. Under the Delegation Program,
                                         Federal agencies can request authority to manage and operate their
                                         own space, including maintenance, protection, and recurring repairs
                                         and alterations. PBS has been providing the OIG information on policy
                                         changes and we have participated in meetings regarding proposed
                                         changes.

                                       • GSA/DoD Billing and Collection Solutions Team. This team was
                                         initially assembled to address a cash shortage in FTS’s Information
                                         Technology Fund and provide solutions to FTS billing and collection
                                         problems between GSA and DoD. In anticipation of the team’s
                                         expansion into PBS billing and collection issues, the OIG sought the
                                         assistance of the DoD OIG in developing a resolution strategy to
                                         reduce the more than $80 million in extremely delinquent debt of one
                                         DoD organization for rent balances owed to GSA. The OIG has been
                                         coordinating with the Agency to facilitate sharing of information and
                                         identifying potential improvements in billing and collection practices.
                                         Problems have also been noted in both the General Supply Fund and
                                         Fleet Services. The OIG will continue its involvement in this initiative in
                                         FY 2002.

                                       • FSS Performance Measures Task Force. The OIG continues to
                                         provide input to the task force established to develop performance
                                         measures for the Federal Supply Service’s Office of Acquisition.

                                       • The Information Technology (IT) Council. The Council monitors
                                         policies and programs to ensure information technology (IT)
                                         consistency throughout the Agency. It is comprised of the Chief
                                         Information Officers of the various GSA Services and Staff Offices.
                                         Representatives of our office participate in the meetings at the request
                                         of the Agency.

                                       The OIG participates in a number of interagency committees and working
                                       groups that directly affect our ability to better add value to the Agency.
                                       For example:

                                       • The President’s Council on Integrity and Efficiency (PCIE) IT
                                         Roundtable discusses various IT audit activities throughout the
                                         Inspector General community.

                                       • Our TeamMate Technical Support Group participates in the TeamMate
                                         Federal Users Group and the PricewaterhouseCoopers TeamMate
                                         Users Group to discuss concerns or new challenges facing TeamMate
                                         users. TeamMate is an audit management system that is moving us
                                         toward a paperless environment and should make the audit process
                                         more efficient.



30 Semiannual Report to the Congress
Partnering with GSA Management




    • Our Assistant Inspector General for Auditing represents all civilian
      government agencies on the Cost Accounting Standards Board, which
      promulgates, amends, and revises Cost Accounting Standards
      designed to achieve uniformity and consistency in cost accounting
      practices by individual government contractors.

    • Our Assistant Inspector General for Investigations serves as the Chair
      of the Assistant Inspectors General for Investigations Subcommittee.
      This subcommittee reports to the PCIE Investigative Committee. The
      subcommittee deals with investigative issues that affect all OIG Offices
      of Investigations, such as statutory law enforcement, peer review, and
      the role of the OIG in workplace violence.




                                                   Office of Inspector General 31
                                        Prevention Activities




                                       In addition to detecting problems in GSA operations, the OIG is
                                       responsible for initiating actions to prevent fraud, waste, and abuse and
                                       to promote economy and efficiency.

Significant Preaward and               The OIG’s preaward audit program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory
Other Audits                           nature of preaward audits distinguishes them from other audits. This
                                       program provides vital and current information to contracting officers,
                                       enabling them to significantly improve the government’s negotiating
                                       position and to realize millions of dollars in savings on negotiated
                                       contracts. This period, the OIG performed preaward audits of
                                       35 contracts with an estimated value of nearly $446 million. The audit
                                       reports contained over $23 million in financial recommendations.

                                       This period, three of the more significant Multiple Award Schedule
                                       contracts we audited had projected governmentwide sales totaling
                                       $184 million. The audit findings recommended that $11.6 million in funds
                                       be put to better use. The audits disclosed that these vendors offered
                                       prices to GSA that were not as favorable as the prices other customers
                                       receive from these vendors.

                                       We also audited several claims for increased costs. Three of the more
                                       significant audits contained proposed prices totaling $2.6 million and
                                       recommended adjustments of $1.9 million. In an audit of a claim for
                                       increased design costs, we found that actual labor costs were not used
                                       and a subcontractor’s costs were questioned because the attorney for the
                                       prime contractor could not contact the subcontractor or find any of its
                                       records related to the claim. In an audit of a claim for increased costs
                                       due to alleged delays caused by the government, we advised the
                                       contracting officer that overhead costs were overstated and other costs
                                       were either calculated incorrectly or were not supported by the
                                       contractor’s records. In another audit of a delay claim, we adjusted the
                                       overhead and labor costs claimed by the contractor.

Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate
                                       GSA employees on their responsibilities for the prevention of fraud and
                                       abuse and to reinforce employees’ roles in helping to ensure the integrity
                                       of Agency operations.

                                       This period, we presented 16 briefings attended by 478 regional
                                       employees. These briefings explain the statutory mission of the OIG and
                                       the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies, the briefings make GSA employees
                                       aware of actual instances of fraud in GSA and other Federal agencies
                                       and thus help to prevent their recurrence. GSA employees are the first
                                       line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.


32 Semiannual Report to the Congress
                       Prevention Activities




Employee Misconduct   Contractors and GSA Employee Sentenced for
                      Bribery and Accepting Gratuities
                      On April 13, 2001, a former GSA building management specialist was
                      sentenced in U.S. District Court for soliciting a bribe from a GSA
                      construction contractor in exchange for the award of PBS repair and
                      renovation contracts and for accepting gratuities. He was sentenced to
                      3 years supervised probation, fined $3,000, and ordered to pay restitution
                      of $3,500. Five additional GSA employees are still awaiting court action.

                      Also during this reporting period, four contractors pled guilty in U.S.
                      District Court to bribing a GSA employee; another contractor pled guilty to
                      giving gratuities to a GSA official. Sentencing has not been scheduled.
                      Five additional contractors, previously arrested, are still awaiting court
                      action.

                      These 16 arrests were the culmination of a 2-year investigation into
                      allegations of bribery and kickback schemes related to GSA maintenance
                      and construction projects at various Federal buildings and offices.

                      Two GSA Employees Convicted for Abusive Sexual
                      Contact
                      An investigation revealed that a GSA maintenance work inspector was
                      engaging in inappropriate behavior. The investigation disclosed that the
                      GSA employee was using contract cleaning personnel to run errands for
                      him and to watch his infant child in a Federal building. Further
                      investigation revealed that he was having unwanted sexual contact with
                      various female contractor employees who worked at his assigned
                      locations. His employment has been terminated by GSA. On August 24,
                      2001, the employee pled guilty in U.S. District Court to a one-count
                      information charging him with abusive sexual contact. Sentencing is
                      scheduled for November 20, 2001.

                      Another similar investigation was initiated after a GSA employee reported
                      that a maintenance mechanic might have assaulted a female co-worker.
                      The investigation revealed that for over 2 years the mechanic had
                      committed numerous acts of abusive sexual contact against a female
                      co-worker at various limited access areas within a Federal building and a
                      United States Courthouse. His employment has been terminated by
                      GSA. On April 2, 2001, the employee was sentenced in U.S. District
                      Court to 14 days in jail and 2 years probation after being convicted of
                      4 counts of abusive sexual contact.




                                                                     Office of Inspector General 33
                                         Prevention Activities




Hotline                                The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-
                                       controlled buildings, as well as brochures, encourage employees to use
                                       the Hotline. We also developed and use our FraudNet Hotline platform to
                                       allow Internet reporting of suspected wrongdoing. During this reporting
                                       period, we received 1,074 Hotline reports. Of these, 133 complaints
                                       warranted further GSA action, 27 warranted other agency action, and
                                       914 did not warrant action.

Implementation                         Responsibility for implementing appropriate corrective action as the result
                                       of audit report recommendations rests with Agency management. The
Reviews                                OIG performs, on a selective basis, independent reviews of the
                                       implementation actions to ensure that management is carrying out this
                                       responsibility according to established milestones. This period, the OIG
                                       performed two implementation reviews. In both of these reviews, all of
                                       the recommendations had been implemented.

Financial Statements                   The annual audit of the GSA consolidated financial statements was
                                       performed by an independent public accounting (IPA) firm, with oversight
Audit                                  and guidance from the OIG, as required by the Chief Financial Officers
                                       Act of 1990. Unqualified opinions on the Agency’s financial statements
                                       and on its system of internal accounting controls were issued and were
                                       highlighted in our October 1, 2000 – March 31, 2001 report.

                                       This period, the IPA issued its FY 2000 Management Letter Report, in
                                       which it identified three reportable conditions. Improvements are needed
                                       in:

                                       • GSA entity-wide system security management and oversight;

                                       • the development, implementation, and change of controls over GSA’s
                                         system environment; and

                                       • controls over the integrity of rent and leasing data.

                                       All of these conditions were identified by the IPA as reportable conditions
                                       in previous years. However, none is considered to be a material
                                       weakness.

                                       We conducted limited risk assessments for three performance measures
                                       and reported that in some cases the internal controls would not provide
                                       reasonable assurance that the data supporting the performance measure
                                       were in place, or that the data were materially complete.




34 Semiannual Report to the Congress
 Prevention Activities




Finally, we reviewed the internal controls over financial reporting for the
Federal Systems Integration and Management Center (FEDSIM).
FEDSIM is a national Client Support Center, located within the Federal
Technology Service, that assists Federal agencies to acquire and utilize
information systems and information technology. FEDSIM operates on a
reimbursable basis and generated revenues of $977 million in FY 2000.
We found that the controls over the revenue and disbursement cycles of
the FEDSIM program appear to effectively and efficiently meet the
desired control objectives.




                                                Office of Inspector General 35
                           Review of Legislation and Regulations




                                       The Inspector General Act of 1978 requires the OIG to review existing
                                       and proposed legislation and regulations to determine their effect on the
                                       economy and efficiency of the Agency’s programs and operations and on
                                       the prevention and detection of fraud and mismanagement.

                                       During this period, the OIG reviewed 215 legislative matters and
                                       23 proposed regulations and directives. The OIG addressed the following
                                       legislative items:

                                       • Draft Bill #19 – Full Funding for Federal Retiree Costs Act of 2001. We
                                         provided comments to GSA concerning the potential impact of this draft
                                         bill on the operating budgets of small offices and agencies such as the
                                         OIG. The draft bill is aimed at making budgeting more performance-
                                         oriented by charging agencies the full government share of retirement
                                         benefits for their employees and retired employees. We support the
                                         goal of increasing agency accountability for these costs but noted our
                                         concern that the increased costs may be substantial relative to the
                                         more limited and inflexible operating budgets of smaller agencies.

                                       • H.R. 2547, Erroneous Payments Recovery Act of 2001. We provided
                                         comments to GSA and the Office of Management and Budget (OMB)
                                         on H.R. 2547, the proposed Erroneous Payments Recovery Act of
                                         2001. The bill would require agencies to establish programs to identify
                                         and recover overpayments made under contracts, and would authorize
                                         agencies either to conduct recovery audits and activities in-house or to
                                         contract out such services to private sector firms. We noted our
                                         support for the bill and strongly endorsed its intent. We also noted our
                                         support of the bill’s inclusion of language to preserve any OIG
                                         authorities that may fall within the ambit of recovery audits, which we
                                         believe will serve to promote coordination between agencies or their
                                         recovery audit contractors and OIGs, as well as to reduce any
                                         duplicative audit activity. One concern that we raised was that in
                                         issuing guidance governing the activities of recovery audit contractors,
                                         OMB should require that contractors contact the OIG if they note any
                                         overpayments that may involve criminal or fraudulent activity, or
                                         overpayments or erroneous payments that relate to other agencies or
                                         that may be beyond the scope of the contract. We also urged that
                                         OMB require recovery auditors to provide periodic reports to the
                                         agency and to the OIG regarding any conditions giving rise to detected
                                         overpayments or erroneous payments.

                                       • Draft Bill #24 – Federal Government Water and Sanitary Sewer Billing
                                         and Collection Improvement Act of 2001. We provided comments to
                                         GSA and OMB on Draft Bill #24, the proposed Federal Government
                                         Water and Sanitary Sewer Billing and Collection Improvement Act of
                                         2001. The bill would alter and streamline the current process through



36 Semiannual Report to the Congress
Review of Legislation and Regulations




         which Federal agencies are billed and pay for water and sewer
         services provided by the District of Columbia Water and Sewer
         Authority (DCWASA), by eliminating the Department of the Treasury’s
         Financial Management Service (FMS) as an intermediary. As currently
         structured, FMS distributes bills to individual agencies and arranges to
         collect the requisite quarterly payments. We supported the bill’s intent
         to streamline the process by eliminating FMS as an intermediary, and
         expressed our belief that individual agencies would be able to deal
         more efficiently with DCWASA directly.

         We noted our concern, though, with a related statutory requirement,
         included in Pub. L. No. 106-554, Consolidated Appropriations Act,
         FY 2001, that OIGs provide quarterly reports on the promptness of
         payments by their agencies for water and sewer services. We
         recommended that the OIG reporting requirement be refined to exclude
         agencies residing in GSA-leased or managed space because many
         agencies residing in such space do not pay for water and sewer
         services; rather, GSA pays for these services on the agencies’ behalf.
         We also recommended that the reporting requirement be set to
         terminate or sunset after a designated date, because, after an initial
         reporting period, perhaps a year or two, Congress would be able to
         identify and focus on those agencies with late payment or billing
         issues.

       In addition, the OIG provided comments on the following proposed
       regulations:

       • Draft GSA Procedures for Providing Reasonable Accommodation. The
         OIG commented on GSA’s draft regulations governing the procedures
         Agency managers would be required to follow when employees ask for
         accommodation of a disability. We recommended that the wording of
         the proposed order be changed to reflect that the case-by-case
         determination of the essential functions of the position in which an
         employee is seeking accommodation take into account the mission
         needs of the organization involved. In addition, we urged that the draft
         be modified to limit the dissemination of confidential medical
         information that is normally included in the accommodation file. We
         also suggested several changes to reflect the independence of the OIG
         in personnel matters.

       • Draft Acquisition Letter on Implementation of Corporate Contracting.
         We provided comments to FSS on a draft acquisition letter that would
         implement “Corporate Contracting” for any vendors desiring to
         participate by merging a vendor’s individual contracts; these merged
         contracts would then be negotiated and administered in a team
         fashion, with a lead acquisition center acting as the principal negotiator.



                                                        Office of Inspector General 37
                           Review of Legislation and Regulations




                                         We expressed our concerns that, while administrative savings might in
                                         fact be achieved from negotiating a Corporate Contract on a
                                         consolidated basis, additional burdens might be imposed in the
                                         administration of such a contract. We also questioned whether
                                         effecting this type of new contract would in fact result in better Multiple
                                         Award Schedule (MAS) pricing on products or in aggregate discounts
                                         for vendors’ entire product lines. We noted our concern that moving to
                                         Corporate Contracting might have unintended negative effects on
                                         competition at the MAS buyer level because ordering agencies may be
                                         more likely to brand-name shop, rather than shopping by price, as a
                                         result of the organization of corporate schedules by vendor name.
                                         Such brand name purchasing might also have the unintended
                                         consequence of decreasing orders to small business MAS vendors.
                                         We suggested that FSS consider implementing the Corporate
                                         Contracting initiative on a pilot basis, and that the acquisition letter be
                                         modified to emphasize the goal of achieving better up-front discounts.

                                       • Draft Acquisition Letter on Pricing of MAS Services. We provided
                                         comments to FSS on a revised draft acquisition letter relating to the
                                         pricing of MAS services. We expressed our concerns that, in
                                         negotiating fair and reasonable MAS services prices, as opposed to
                                         commercial products, vendor price lists and catalogs reflecting services
                                         do not reflect actual commercial sales prices. Our experience has
                                         shown that vendors seldom publish price lists and catalogs reflecting
                                         services pricing, because such services are priced on a task order or
                                         bottom line basis in the commercial world. To reflect this reality, we
                                         recommended that the acquisition letter emphasize that contracting
                                         officers may have to request cost-type information from vendors in
                                         order to evaluate pricing.

                                         We expressed our concern that the acquisition letter more clearly
                                         emphasize that contracting officers should be particularly diligent when
                                         negotiating other direct costs to ensure that any such costs are not
                                         already captured in burdened hourly labor-rates. We also
                                         recommended that the acquisition letter establish a $25 million
                                         expected sales threshold for contracting officials to request audit
                                         assistance in evaluating cost data for services proposals and when
                                         basing pricing on other government contracts. Finally, we
                                         recommended that the acquisition letter provide more guidance on
                                         negotiating price reductions, by adding language to explain how basis
                                         of award customers are identified and how pricing relationships are
                                         defined specifically in the context of services contracts.




38 Semiannual Report to the Congress
Review of Legislation and Regulations




       • Draft Acquisition Letter on Negotiations Quality Measurement and
         Improvement. We provided comments to FSS on a draft acquisition
         letter relating to negotiations quality measurement and improvement.
         While we strongly supported the prenegotiation clearance (PNC)
         procedures set forth in the acquisition letter and endorsed the
         application of the PNC procedures both to contract awards and
         negotiations, we recommended that some kind of PNC review should
         take place. We also recommended that the acquisition letter be
         amended to provide that acquisition centers and FSS Acquisition
         Management Center select for postaward review all large value
         contracts over a certain dollar threshold, with perhaps a random
         sample of contracts below that threshold. We also suggested that
         language be specifically included in the acquisition letter to apply PNC
         procedures to sensitive or controversial acquisition actions, including
         contract actions with vendors who have past performance problems,
         problems with sales reporting or industrial funding, or poor audit and/or
         investigative histories. We recommended that information on the
         proposed basis of award customer or class of customers for purposes
         of triggering the price reduction clause be included in the information
         that the contracting officer should present to the PNC panel for MAS
         contracts, as well as information supporting the pricing objectives,
         including price analyses and verification of pricing information.




                                                       Office of Inspector General 39
                     Statistical Summary of OIG Accomplishments




                                       Audit Reports Issued
                                       The OIG issued 83 audit reports during this reporting period. The
                                       83 reports contained financial recommendations totaling $24,670,418,
                                       including $23,584,287 in recommendations that funds be put to better use
                                       and $1,086,131 in questioned costs. Due to GSA’s mission of negotiating
                                       contracts for governmentwide supplies and services, most of the savings
                                       from recommendations that funds be put to better use would be
                                       applicable to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of September 30, 2001. Three reports more than 6 months old
                                       were awaiting management decisions as of September 30, 2001; two of
                                       them were preaward audits, issued before February 10, 1996, which are
                                       not subject to the 6-month management decision requirement. Table 1
                                       does not include 1 report issued to another agency this period. Table 1
                                       also does not include 6 reports excluded from the management decision
                                       process because they pertain to ongoing investigations.




                       Table 1. Management Decisions on OIG Audits
                                                                        Reports with        Total
                                                         No. of           Financial       Financial
                                                        Reports       Recommendations Recommendations

    For which no management decision
    had been made as of 4/1/01
      Less than six months old                            36                  27               $59,631,705
      Six or more months old                               3                   2                   373,884
    Reports issued this period                            82                  42                24,670,418
    TOTAL                                                121                  71               $84,676,007
    For which a management decision
    was made during the reporting period
      Issued prior periods                                 36                 27               $18,742,171
      Issued current period                                43                 16                 6,529,910
    TOTAL                                                  79                 43               $25,272,081
    For which no management decision
    had been made as of 9/30/01
      Less than six months old                             39                 26               $18,140,508
      Six or more months old                                3                  2                41,263,418
    TOTAL                                                  42                 28               $59,403,926



40 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments




                           Management Decisions on Audit Reports with
                           Financial Recommendations
                           Tables 2 and 3 present the audits identified in Table 1 as containing
                           financial recommendations by category (funds to be put to better use or
                           questioned costs).




          Table 2. Management Decisions on OIG Audits with
          Recommendations that Funds be Put to Better Use

                                                  No. of                      Financial
                                                 Reports                  Recommendations

For which no management decision had
been made as of 4/1/01
  Less than six months old                           23                     $58,077,626
  Six or more months old                              2                         373,884
Reports issued this period                           31                      23,584,287
TOTAL                                                56                     $82,035,797
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  •management action                                 —                      $22,980,914
  •legislative action                                —                               —
  Recommendations not agreed to
  by management                                      —                                 0
TOTAL                                                34                      $22,980,914
For which no management decision had
been made as of 9/30/01
  Less than six months old                           20                      $17,791,465
  Six or more months old                              2                       41,263,418
TOTAL                                                22                      $59,054,883




                                                                         Office of Inspector General 41
                     Statistical Summary of OIG Accomplishments




                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                No. of               Questioned
                                               Reports                 Costs

          For which no management decision
          had been made as of 4/1/01
            Less than six months old               4             $1,554,079
            Six or more months old                 0                      0
          Reports issued this period              11              1,086,131
          TOTAL                                   15             $2,640,210
          For which a management decision
          was made during the reporting
          period
            Disallowed costs                      —              $2,241,213
            Costs not disallowed                  —                  49,954
          TOTAL                                    9             $2,291,167
          For which no management decision
          had been made as of 9/30/01
            Less than six months old               6             $ 349,043
            Six or more months old                 0                     0
          TOTAL                                    6             $ 349,043




42 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments




                       Investigative Workload
                       The OIG opened 119 investigative cases and closed 127 cases during
                       this period. In addition, the OIG received and evaluated 79 complaints
                       and allegations from sources other than the Hotline that involved GSA
                       employees and programs. Based upon our analyses of these complaints
                       and allegations, OIG investigations were not warranted.

                       Referrals
                       The OIG makes criminal referrals to the Department of Justice or other
                       authorities for prosecutive consideration and civil referrals to the Civil
                       Division of the Department of Justice or U.S. Attorneys for litigative
                       consideration. The OIG also makes administrative referrals to GSA
                       officials on certain cases disclosing wrongdoing on the part of GSA
                       employees, contractors, or private individuals doing business with the
                       government.

                   Table 4. Summary of OIG Referrals

Type of Referral                      Cases                                 Subjects
Criminal                                 46                                     88
Civil                                     7                                     13
Administrative                          116                                   221
TOTAL                                  169                                    322


                       In addition, the OIG made 39 referrals to GSA officials for information
                       purposes only.

                       Actions on OIG Referrals
                       Based on these and prior referrals, 23 cases (46 subjects) were accepted
                       for criminal prosecution and 4 cases (7 subjects) were accepted for civil
                       litigation. Criminal cases originating from OIG referrals resulted in
                       23 indictments/informations and 20 successful prosecutions. OIG civil
                       referrals resulted in 3 case settlements. Based on OIG administrative
                       referrals, management debarred 22 contractors/individuals, suspended
                       44 contractors/individuals, and took 23 personnel actions against
                       employees.




                                                                        Office of Inspector General 43
                     Statistical Summary of OIG Accomplishments




                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                       and restitutions payable to the U.S. Government as a result of criminal
                                       and civil actions arising from OIG referrals.

                                       In addition, the OIG had administrative recoveries of $176,009 during the
                                       course of its investigations and recovered property with a fair market
                                       value of $4,905,157.




                             Table 5. Criminal and Civil Recoveries
                                                            Criminal                       Civil

            Fines and Penalties                           $206,128                   $      —

            Settlements and Judgments                            —                   923,000

            Restitutions                                   697,461                          —

            TOTAL                                         $903,589                   $923,000




44 Semiannual Report to the Congress
APPENDICES
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                    The remaining recommendations include maintaining a
process, the GSA Office of the Chief Financial Officer,       list of authorized officials for smart card applications
Office of the Controller, is responsible for tracking the     and amending procedures to include GSA employees
implementation of audit recommendations after a               and occupants of GSA-controlled space. The recom-
management decision has been reached. That office             mendations are         scheduled for completion by
furnished the following status information.                   October 15, 2001.

Twenty-two audits highlighted in prior reports to the         FPS Intelligence Sharing Program
Congress have not yet been fully implemented; all are         Period First Reported: October 1, 2000 to March 31, 2001
being implemented in accordance with currently
                                                              The review assessed the Federal Protective Service’s
established milestones.
                                                              Intelligence Sharing Program. The report contained
                                                              three recommendations; one has been implemented.
Minimizing Cost Increases on Repair
and Alteration Projects                                       The remaining recommendations include conducting
Period First Reported: October 1, 2000 to March 31, 2001      follow-up training at the academy and conducting a
The review evaluated 10 repair and alteration projects.       presentation on actual GSA-related case experience.
                                                              The recommendations are scheduled for completion by
The report contained three recommendations; two
                                                              November 15, 2001.
have been implemented.

The remaining recommendation includes evaluating              Operating Equipment Inventories
and developing program initiatives for the Construction       Period First Reported: April 1, 2000 to September 30, 2000
Excellence Program. It is scheduled for completion by         The review focused on equipment maintenance
January 15, 2002.                                             maintained by contractors. The report contained two
                                                              recommendations; they have not been implemented.
Interagency Agreement
Period First Reported: October 1, 2000 to March 31, 2001      The recommendations include identifying the
                                                              responsibility for maintenance programs to contractors
The review assessed an interagency agreement to               and monitoring quality control plans. They are sched-
purchase electricity. The report contained five recom-        uled for completion between October 15, 2001 and
mendations; one has been implemented.                         October 15, 2003.

The remaining recommendations include developing a            Information Security Support
plan to competitively procure electricity, providing a ref-   Services
erence list of utility taxes and surcharges, including
                                                              Period First Reported: April 1, 2000 to September 30, 2000
provisions citing specific tax exemptions, and initiating
recovery action for taxes and surcharges inappropri-          The review focused on information security support
ately paid. The recommendations are scheduled for             services provided by GSA to Federal agencies. The
completion by October 15, 2001.                               report contained eight recommendations; six have
                                                              been implemented.
Controls over Smart Cards
                                                              The remaining recommendations involve reconciling
Period First Reported: October 1, 2000 to March 31, 2001
                                                              overspent orders and identifying orders that are inac-
The review examined management controls over smart            tive and have excess funds. They are scheduled for
cards at a regional office building. The report               completion by November 15, 2001.
contained three recommendations; one has been
implemented.




                                                                                           Office of Inspector General 47
                    Appendix I–Significant Audits from Prior Reports



Controls over Proceeds from Real                             Information Office resources. It is scheduled for
                                                             completion by February 15, 2002.
Property Sales
Period First Reported: April 1, 2000 to September 30, 2000   FTS Task and Delivery Order
The review focused on management controls over               Contracts
proceeds from real property sales. The report con-
tained three recommendations; one has been                   Period First Reported: April 1, 2000 to September 30, 2000
implemented.                                                 The review assessed FTS’ use of multiple award task
                                                             and delivery order contracts. The report contained five
The remaining recommendations include testing com-           recommendations; one has been implemented.
pliance with controls and providing better guidelines to
zonal offices. They are scheduled for completion
                                                             The remaining recommendations involve enhancing
between October 15, 2001 and September 15, 2002.
                                                             procurement practices, promoting meaningful competi-
PBS Task and Delivery Order                                  tion, strengthening controls, and developing a
Contracts                                                    transition plan. They are scheduled for completion by
                                                             November 15, 2001.
Period First Reported: April 1, 2000 to September 30, 2000
The review assessed PBS’ use of multiple award task          Environmental Management System
and delivery order contracts. The report contained two       Period First Reported: October 1, 1999 to March 31, 2000
recommendations; one has been implemented.
                                                             The review focused on the management of the
The remaining recommendation involves phasing out            environmental program. The report contained three
the use of single award indefinite delivery indefinite       recommendations; one has been implemented.
quantity construction contracts. It is scheduled for
completion on December 15, 2001.                             The remaining recommendations include establishing
                                                             a framework to evaluate and coordinate regional activ-
National Real Estate Services                                ities, and expanding the focus of the program. They
Contracts                                                    are scheduled for completion by October 15, 2001.
Period First Reported: April 1, 2000 to September 30, 2000
                                                             Contract Security Guard Program
The review evaluated national real estate services
                                                             Period First Reported: October 1, 1999 to March 31, 2000
contracts. The report contained four recommenda-
tions; they have not been implemented.                       The review assessed the Contract Security Guard
                                                             Program. The report contained eight recommenda-
The recommendations include developing a cost                tions; six have been implemented.
accounting system and controls, estimating revenues,
developing performance measures, and providing               The remaining recommendations include developing a
training. They are scheduled for completion between          national training program, witnessing firearm
October 15 and November 15, 2001.                            qualification sessions, and tracking qualification status
                                                             of contract guards. They are scheduled for completion
Information Tracking Process
                                                             by June 15, 2002.
Period First Reported: April 1, 2000 to September 30, 2000
The review assessed FTS’ Integrated Task Order               Real Property Management
Management System. The report contained two                  Information System
recommendations; one has been implemented.                   Period First Reported: October 1, 1999 to March 31, 2000

The remaining recommendation involves continuing             The review evaluated the System for Tracking
current procurement methods and using FTS Chief              and Administering Real Property (STAR). The report

48 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




contained four recommendations; one has been                 Security Enhancements in Federal
implemented.                                                 Buildings
                                                             Period First Reported: April 1, 1998 to September 30, 1998
The remaining recommendations include identifying
capabilities needed in STAR, developing a project plan,      The review evaluated GSA’s program for upgrading
and establishing a project management team. They             security in Federal buildings. The report contained six
are scheduled for completion by November 15, 2001.           recommendations; five have been implemented.

Controls over RWA Expenditures                               The remaining recommendation involves reporting cost
Period First Reported: April 1, 1999 to September 30, 1999   data for future countermeasures. It is scheduled for
                                                             completion by April 15, 2002.
The review assessed the controls over GSA’s
Reimbursable Work Authorization process. The report          Information Systems Security
contained two recommendations; they have not been
                                                             Period First Reported: April 1, 1998 to September 30, 1998
implemented.
                                                             The review assessed the security measures of six
The recommendations involve reviewing financial              major Internet and Intranet GSA applications. The
data; and adjusting controls, updating policies, and         report contained four recommendations; three have
providing training. They are scheduled for completion        been implemented.
by January 15, 2002.
                                                             The remaining recommendation involves specifying
Local Area Network Security Risks                            roles and responsibilities to ensure security.
                                                             It is scheduled for completion by October 15, 2001.
Period First Reported: April 1, 1999 to September 30, 1999
The review focused on the local area network (LAN)           Megacenter Dispatch Services
security. The report contained four recommendations;         Period First Reported: October 1, 1997 to March 31, 1998
one has been implemented.
                                                             The review focused on GSA’s plans to consolidate
The remaining recommendations include developing             security control centers into four megacenters. The
LAN security plans, establishing processes for manag-        report contained four recommendations; two have
ing accounts and contingency plans, and identifying          been implemented.
controls for remote access to LANs. They are sched-
uled for completion between October 15, 2001 and             The recommendations include developing alternate
January 15, 2002.                                            access procedures and implementing a preventive
                                                             alarm maintenance program. They are scheduled for
Security Standards for New Buildings                         completion by September 15, 2002.
Period First Reported: October 1, 1998 to March 31, 1999     Contract Workload Management
The review evaluated security standards for new and          Period First Reported: October 1, 1997 to March 31, 1998
renovated Federal buildings. The report contained two
recommendations; they have not been implemented.             The review identified opportunities for improving
                                                             workload management. The report contained one
The recommendations include defining roles and               recommendation; it has not yet been implemented.
responsibilities of individuals involved in building stan-
dards, and creating security standards for newly             The recommendation involves the need to automate
acquired leased space. They are scheduled for                key activities of the contracting process. It is
completion between August 15, 2002 and January 15,           scheduled for completion by June 15, 2002.
2003.



                                                                                          Office of Inspector General 49
                    Appendix I–Significant Audits from Prior Reports




Federal Protective Service
Investigation Office
Period First Reported: April 1, 1997 to September 30, 1997

The evaluation focused on a review of the Federal
Protective Service’s criminal investigation activities.
The report contained five recommendations; four have
been implemented.

The remaining recommendation involves establishing
measurable criminal investigations program perform-
ance standards. It is scheduled for completion by
October 15, 2001.




50 Semiannual Report to the Congress
                             Appendix II–Audit Report Register

                                                                                      Financial
                                                                                 Recommendations
                                                                             Funds to         Questioned
Date of       Audit                                                         Be Put To       (Unsupported)
Report        Number                    Title                               Better Use          Costs


(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Internal Audits
04/19/01       A001097        Limited Audit of the Public Buildings
                              Service Performance Measures: “Funds
                              from Operations” for Government-Owned
                              Operations and “Funds from Operations”
                              for Leasing Operations

04/19/01       A001097        Limited Audit of the Public Buildings
                              Service Performance Measure: “Cycle
                              Time on New Leases”

07/16/01       A010156        Management Assistance Review of the
                              Public Buildings Service’s Initiatives for
                              the Reimbursable Work Authorization
                              Program - National Capital Region

09/05/01       A001053        Audit of the Public Buildings Service,
                              Property      Management   Center   in
                              Springfield, Illinois

09/06/01       A010091        Audit of PBS’ Asbestos Management
                              Program in the National Capital Region

09/18/01       A001112        Audit of PBS’s Fire Safety Activities

09/18/01       A010007        Audit of the Public Buildings Service
                              Procurement    Workforce    Education
                              Requirements and Workforce Information
                              System

09/26/01       A010113        Review of Cost Accounting in the Public
                              Buildings Service

09/26/01       A010213        Review of Clinton Archival Storage Facility
                              Lease in Little Rock, Arkansas, Lease
                              Number GS-07B-14868

09/27/01       A010110        Review of GSA’s Natural Gas Program,                           $158,100
                              Public Buildings Service




                                                                                 Office of Inspector General 51
                               Appendix II–Audit Report Register

                                                                                         Financial
                                                                                    Recommendations
                                                                                Funds to         Questioned
Date of        Audit                                                           Be Put To       (Unsupported)
Report         Number                   Title                                  Better Use          Costs


09/28/01       A010044         Audit of the Public Buildings Service’s Asset
                               Business Plans

09/28/01       A010044         Audit of the Public Buildings Service’s Asset
                               Business Plans - Observations

PBS Contract Audits
04/05/01       A010080         Postaward Audit of Fleet Maintenance
                               Contract: Serco Management Services, Inc.,
                               Contract Number GS00M99MVC0001

04/16/01       A010166         Preaward Audit of Architect and Engineering
                               Services Contract: Syska & Hennessy, Inc.,
                               Solicitation Number GS-05P99GBC0020

04/23/01       A010162         Preaward Audit of Architect and Engineering
                               Services Contract: HDR Architecture, Inc.,
                               Contract Number GS05P99GBC0020

04/30/01       A010127         Audit of Billings under Contract Number                         $303,193
                               GS06P99GZC0315: DKW Construction, Inc.

05/11/01       A010128         Preaward Audit of a Change Order Proposal:
                               D.A.G. Floors, Inc., Subcontractor to J.
                               Kokolakis Contracting, Inc., Contract
                               Number GS-02P-98-DTC-0056N

05/17/01       A010170         Preaward Audit of Architect and Engineering
                               Services Contract: RMF Engineering, Inc.,
                               Solicitation Number A/E CHESAPEAKE-00-
                               0010

05/18/01       A010157         Preaward Audit of a Claim: Owen, Melbye &
                               Rohlff Building Partnership, Lease Number
                               GS-09B-97243

05/22/01       A010179         Preaward Audit of Architect and Engineering
                               Services Contract: Quinn Evans Architects,
                               Solicitation Number GS05P00GBC0043

05/23/01       A010160         Preaward Audit of Cost or Pricing Data:
                               John Milner Associates, Inc., Solicitation
                               Number 2PCB-CM-010174




52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                         Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put To       (Unsupported)
Report     Number              Title                                Better Use          Costs


05/30/01   A010176   Preaward Audit of a Lease Alteration
                     Proposal:   Rost  Enterprises, L.P.,
                     Subcontractor to LCOR, Incorporated,
                     Lease Number GS-03B-40073

05/31/01   A010118   Preaward Audit of a Claim for Increased
                     Costs: Amelco Construction, Roybal
                     Federal Building & Courthouse, Los
                     Angeles, California, Contract Number GS-
                     09P-98-KTC-0020

05/31/01   A010181   Preaward Audit of Architect and
                     Engineering Services Contract: Aerosol
                     Monitoring & Analysis, Inc., Consultant to
                     RMF Engineering, Inc., Solicitation
                     Number A/E CHESAPEAKE-00-0010

06/06/01   A010185   Limited Scope Audit of Change Order
                     Proposal: Delaware Cornerstone Builders,
                     Inc.,   Contract    Number     GS-11P-
                     99YTC0087

06/07/01   A010164   Audit of Claim for Increased Costs:
                     Applewhite & Associates, Inc., Contract
                     Number GS-04P-96-EXC-0020

06/08/01   A010167   Audit of Claim for Increased Costs: Intrepid
                     Enterprises, Inc., Contract Number GS-
                     04P-96-EXC-0020

06/12/01   A010028   Audit of Billings under Contract Number                           $42,926
                     GS06P97GYD0025:          NCS/ICS Joint
                     Venture, Subcontractor to Novack/Hof
                     Joint Venture

06/13/01   A010131   Preaward Audit of Change Order Proposal:
                     Erector Specialist, Inc., Contract Number
                     GS-02P-98-DTC-0056N

06/21/01   A010189   Preaward Audit of Change Order Proposal:
                     URS/O’Brien Kreitzberg, Joint Venture,
                     Contract Number GS-02P-96-DTC-0018




                                                                         Office of Inspector General 53
                               Appendix II–Audit Report Register

                                                                                          Financial
                                                                                     Recommendations
                                                                                 Funds to         Questioned
Date of        Audit                                                            Be Put To       (Unsupported)
Report         Number                    Title                                  Better Use          Costs


06/27/01       A010182         Audit of Claim for Increased Costs: Acousti
                               Engineering Company of Florida, Contract
                               Number GS-04P-96-EXC-0020

07/03/01       A010168         Audit of Claim for Increased Costs: C.W.
                               Fentress J.H. Bradburn and Associates, P.C.,
                               Contract Number GS-07P-91-JXC-0062

07/05/01       A000989         Postaward  Audit    of    Construction
                               Management Contract: Gilbane Building
                               Company, Contract Number GS-11P-97-
                               MKC-0020

07/25/01       A010218         Audit of Claim for Increased Costs: Triple “A”
                               Fire Protection, Inc., Contract Number GS-
                               04P-96-EXC-0020

07/31/01       A001055         Preaward Audit of a Claim: Heritage Air
                               Systems, Inc., Subcontractor to Turner
                               Construction Company, Contract Number
                               GS-02P-95-DTC-0014

08/14/01       A010222         Preaward Audit of Architect and Engineering
                               Proposal: Perkins and Will, Inc., Solicitation
                               Number GS-09P-00-KTC-0088

08/22/01       A010234         Postaward Audit of Architect and Engineering
                               Services Contract: Van Dijk, Pace, Westlake,
                               Ltd., Contract Number GS05P00GBC0052

08/22/01       A010233         Postaward Audit of Architect and Engineering
                               Services Contract: Van Dijk, Pace, Westlake,
                               Ltd., Contract Number GS05P00GBC0049

08/23/01       A010217         Audit of Overtime Utility Billings under Lease                   $136,981
                               Number GS-06P-39062: Star City/Federal,
                               Inc.

08/23/01       A010237         Limited Scope Preaward Audit of Change
                               Order Proposal: Iacoboni Site Specialists,
                               Inc., Contract Number GS-11P00YTC0239




54 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Audit                                                     Be Put To       (Unsupported)
Report     Number               Title                                Better Use          Costs


09/05/01   A010193    Audit of Claim for Increased Costs:
                      Woodcraft Manufacturing, Inc., Contract
                      Number GS-04P-96-EXC-0020

09/07/01   A010183    Audit of Claim for Increased Costs: Avalotis
                      Corporation, Contract Number GS-04P-96-
                      EXC-0020

09/27/01   A010206    Audit of Actual Cost Incurred to Determine
                      Shared Savings Under Phase I of Contract
                      Number GS-04P-97-EXC-0005: Whiting-
                      Turner Contracting Company

09/28/01   A010254    Audit of Payments: Paragon Systems,
                      Contract Number GS-04P-98-EYC-0117

FSS Internal Audits
05/31/01   A001105    Review      of      General       Services
                      Administration’s    Personal      Property
                      Program

07/26/01   A010244    Review of Procurements Made by GSA’s
                      Accident Management Center in the
                      Heartland Region

07/31/01   A010186    Limited Review of the Award and
                      Administration of Contract Number GS-
                      25F-6072D, Eastman Kodak Company

09/13/01   A010008    Audit of the Federal Supply Service’s
                      Marketing Program

09/27/01   A010155    Review of Federal Supply           Service
                      Overseas Supply Activities

09/28/01   A001097    Limited Audit of the Federal Supply
                      Service’s Performance Measure: “Percent
                      Savings Saved Compared to Black Book
                      Price”

09/28/01   A010088    Follow-up Review of Operations of FSS’
                      Hardware Superstore




                                                                          Office of Inspector General 55
                               Appendix II–Audit Report Register

                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put To       (Unsupported)
Report         Number                   Title                                 Better Use          Costs


FSS Contract Audits
04/25/01       A010158         Preaward Audit of Multiple Award Schedule
                               Contract: Polaroid Corporation, Solicitation
                               Number FCGE-C100-0001-B

05/10/01       A010159         Limited Postaward Audit of Task Order
                               Number OJP-2000-129-F under GSA
                               Contract Number GS-35F-0216K: Crunchy
                               Technologies, Inc.

05/22/01       A010151         Preaward Audit of Multiple Award Schedule
                               Contract: Pitney Bowes, Inc., Solicitation
                               Number FCGE-C1-00-0001-B

05/30/01       A010175         Preaward Audit of Cost or Pricing Data:
                               Caswell International Corporation, Contract
                               Number GS-02F-0434D

06/06/01       A000965         Limited Scope Postaward Audit of Multiple                        $1,483
                               Award Schedule Contract for the Period July
                               1, 1999 Through December 31, 1999:
                               Franklin Covey, Contract Number GS-14F-
                               9729C

06/19/01       A001113         Limited Scope Postaward Audit: Voyager                         $161,834
                               Fleet Systems, Inc., Contract Number GS-
                               23F-98006 for the Interim Period November
                               30, 1998 Through December 31, 2000

06/27/01       A010227         Preaward Audit of Multiple Award Schedule
                               Contract: LDV, Inc., Solicitation Number
                               FFAH-C2-99-0235B

07/10/01       A010201         Preaward Audit of Multiple Award Schedule
                               Contract: ABM Federal Sales, Solicitation
                               Number FCGE-C1-00-0001-B

07/12/01       A81537          Postaward Audit of Multiple Award                              $226,798
                               Schedule Contract: Honeywell, Inc., Home
                               and Building Control, Contract Number
                               GS-07F-8806D for the Period December
                               29, 1995 Through May 17, 1999




56 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                             Financial
                                                                        Recommendations
                                                                    Funds to         Questioned
Date of    Audit                                                   Be Put To       (Unsupported)
Report     Number             Title                                Better Use          Costs


07/23/01   A010211   Postaward Audit of Multiple Award                                  $2,337
                     Schedule Contract: LDV, Inc., Contract
                     Number GS-30F-1030D

08/03/01   A010178   Preaward Audit of Multiple Award Schedule
                     for Corporate Contracts Program: Ricoh
                     Corporation, Solicitation Number FCO-00-
                     CORP-0000C

08/10/01   A010191   Preaward Audit of Multiple Award Schedule
                     for Corporate Contracts Program for the
                     Period October 1, 2001 Through
                     September 30, 2005, Savin Corporation,
                     Solicitation Number FCO-00-CORP-0000C

08/16/01   A010122   Interim Postaward Audit of Multiple Award                        $43,444
                     Schedule Contract: ABM, Inc., Contract
                     Number GS-26F-1002B

08/30/01   A010192   Postaward Audit of Industrial Funding Fee:                         $7,155
                     Broadway Sporting Goods Co., Inc.,
                     Contract Numbers GS-07F-9870H and
                     GS-07F-8552C

09/17/01   A010221   Preaward Audit of Multiple Award Schedule
                     Contract: Konica Business Technologies,
                     Inc., Solicitation Number FCGE-C100-
                     0001-B

09/26/01   A010224   Preaward Audit of Multiple Award Schedule
                     Contract: Oce’ Office Systems, Solicitation
                     Number FCGE-C1-00-0001-B

09/26/01   A010253   Price Adjustments on Multiple Award
                     Schedule       Contract:      TransUnion
                     Corporation, Contract Number GS-22F-
                     9602D for the Interim Period November 1,
                     2001 Through April 30, 2005

09/28/01   A010252   Limited Scope Postaward Audit Review of                            $1,880
                     Industrial Funding Fee Remittances: ABM,
                     Inc., Various GSA Multiple Award Schedule
                     Contract Numbers




                                                                        Office of Inspector General 57
                               Appendix II–Audit Report Register

                                                                                        Financial
                                                                                   Recommendations
                                                                               Funds to         Questioned
Date of        Audit                                                          Be Put To       (Unsupported)
Report         Number                   Title                                 Better Use          Costs



FTS Internal Audits
04/11/01       A001084         FTS Implementation of the Metropolitan Area
                               Acquisition Program

06/05/01       A010123         Survey of Region 2 Telecommunications
                               Systems Controls, Federal Technology
                               Service

08/21/01       A010109         Review of GSA’s Millennia Program, Federal
                               Technology Service

09/21/01       A010079         Review of the Transition to FTS2001
                               Contracts, Federal Technology Service

09/27/01       A010219         Audit of Federal Technology Service
                               Financial Controls Over Information
                               Technology Solutions

Other Internal Audits
05/29/01       A001012         PricewaterhouseCoopers LLP Fiscal Year
                               2000 Interim and Year-End Management
                               Letters

06/12/01       A010152         Review of Controls over Heartland Region
                               Employees’ Use of Purchase and Travel
                               Cards

06/21/01       A000811         GSA’s Increasing Use of Electronic
                               Commerce Systems Requires Improved
                               Security

07/31/01       A001066         Advisory Report on GSA’s Human Capital
                               Management

07/31/01       A010050         Interim Report: Audit of the Contract
                               Administration of the Pegasys Project by the
                               Office of the Chief Financial Officer

09/18/01       A010173         Government Information Security Reform
                               Act, GSA OIG Annual Report for FY 2001




58 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                               Financial
                                                                          Recommendations
                                                                      Funds to         Questioned
Date of    Audit                                                     Be Put To       (Unsupported)
Report     Number             Title                                  Better Use          Costs


09/25/01   A000830   Review of General Services Administration’s
                     National GM&A Overhead Costs

09/26/01   A010049   Audit of the Mid-Atlantic Region’s Control
                     Over and Use of Credit Cards

Non-GSA Internal Audits
07/23/01   A010194   Audit Assist to the National Capital Planning
                     Commission




                                                                          Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.

Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

12/17/96       A70606          Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract
                               Number GS-00K-89AHD0007

01/10/97       A52159          Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems,
                               Inc., Contract Number GS-00K-91-AGS-5201

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

06/11/97       A61827          Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                               Company, Contract Number GS-07F-3956A for the Period February 1, 1992
                               Through October 31, 1995

06/16/97       A70927          Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal
                               No. GSC-TFGD-97-1012

06/24/97       A70928          Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-TFGD-
                               97-1014




60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


06/27/97   A71811   Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                    International, Inc., Contract Number GS06P94GYC0037

07/11/97   A71803   Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                    Number GS06P94GYC0037

07/22/97   A71804   Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                    Subcontractor to Morse Diesel International, Inc., Contract Number
                    GS06P94GYC0037

07/31/97   A71820   Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                    Number GS06P94GYC0037

08/05/97   A73617   Refund From The Committee For Purchase From People Who Are Blind Or
                    Severely Disabled, Agreement Number GS-02F-61511

08/22/97   A70646   Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                    GS-02P-94-CUC-0070(N)

09/22/97   A70649   Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                    Beacon/Pro Con, Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97   A71526   Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                    Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                    January 31, 2001

10/23/97   A70655   Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                    to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/24/97   A70660   Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                    Contract Number GS-02P-94-CUC-0070(N)

11/12/97   A70656   Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                    Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536   Postaward Audit of Multiple Award Schedule Contract:         Ingres Corporation,
                    Contract Number GS00K89AGS5589

11/26/97   A32476   Limited Audit of Government Billings:     Ingres Corporation, Contract Number
                    GS00K89AGS5589

12/24/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80604   Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)




                                                                          Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


01/12/98       A80608          Preaward Audit of a Delay Claim: Beacon/Pro Con Joint Venture, Contract Number
                               GS-02P-94-CUC-0070(N)

02/05/98       A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                               Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                               CUC-0070(N)

02/11/98       A80607          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070(N)

03/19/98       A81515          Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                               Contract Number GS-07P-92-HUC-0017

04/13/98       A80621          Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                               02P-94-CUC-0070 (N)

04/20/98       A81528          Audit of Real Estate Tax Adjustments: American National Bank, Trustee, Lease
                               Number GS-05B-15448, Calendar Years 1994 Through 1996

05/27/98       A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                               Contract Number GS-00F-07010

06/08/98       A80618          Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY,
                               Lease Number GS-02B-15370

06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

07/17/98       A60934          Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems,
                               Inc., Contract Number GS-00F-0002A for the Interim Period October 8, 1992
                               Through February 28, 1997

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A80934          Preaward Audit of Multiple Award Schedule Contract: Simple Green, a Division of
                               Sunshine Makers, Inc., Solicitation Number TFTP-97-SC-7906B

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068




62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


10/13/98   A80636    Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                     Number GS-02P-96-DTC-0033

11/13/98   A82471    Preaward Audit of a Claim for Increased Costs:      Hensel Phelps Construction
                     Company, Contract Number GS-08P-96-JFC-0006

11/16/98   A80646    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

12/15/98   A82472    Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc.,
                     Subcontractor to Hensel Phelps Construction Company, Contract Number GS-
                     08P-96-JFC-0006

01/29/99   A995106   Postaward Audit of Overhead Rate:      Turner Construction Company, Contract
                     Number GS-05P-94GBC-0051

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/17/99   A995100   Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                     Inc., Contract Number GS-03P-96-DXC-0021

03/02/99   A995139   Preaward Audit of a Claim: Stromberg Metal Works, Inc., Subcontractor to W.M.
                     Schlosser Company, Inc., Contract Number GS-03P-92-DXC-0021

03/30/99   A995150   Preaward Audit of Supplemental Architect and Engineering Services Contract;
                     Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                     PLD-0015(N)

04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

04/30/99   A995176   Preaward Audit of a Claim: Honeywell Inc., Subcontractor to Reliable Contracting
                     Inc., Contract Number GS-02P-91-CUC-0045(N)

05/05/99   A995151   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

05/10/99   A995207   Audit of Recoverable Costs - FY 1997: Six World Trade Center, New York, N.Y.,
                     Lease Number GS-02B-15370

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                     1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                     Number GS-26F-1018B

06/15/99   A42113    Postaward Audit of Multiple Award Schedule Contract:        Herman Miller Inc.,
                     Contract Number GS-00F-07000



                                                                          Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


06/15/99       A995171         Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                               EMN-1999-MO-2032 & EMN-1999-MO-2036

06/15/99       A995206         Audit of Recoverable Costs - FY 1995: Six World Trade Center, New York, N.Y.,
                               Lease Number GS-02B-15370

06/18/99       A995220         Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                               GS05P96GAC0187

06/22/99       A995164         Preaward Audit of Multiple Award Schedule Contract:          Compaq Computer
                               Corporation, Extension to Contract Number GS-35F-4544G

06/24/99       A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                               GS-02P-95-DTC-0041(N)

07/07/99       A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                               Number GS-02P-95-DTC-0041(N)

07/07/99       A995209         Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                               92CUC0029(N)

07/30/99       A995173         Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                               1999-MO-2032 & EMN-1999-MO-2036

08/12/99       A995215         Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                               & EMN-1999-MO-2036

09/09/99       A995283         Preaward Review of Multiple Award Schedule Contract:         National Education
                               Training Group, Inc., Contract Number GS-02B-22885

09/15/99       A52534          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288

09/15/99       A52565          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288 (PS01)

09/15/99       A52566          Postaward Audit of Multiple Award Schedule Contract: Intermec Corporation,
                               Contract Number GS00K91AGS5288 (PS02)

09/23/99       A995296         Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                               Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                               2004

10/04/99       A995275         Preaward Audit of Change Order Proposal to Contract Number GS-
                               02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                               University




64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/22/99   A995298   Postaward Audit of Multiple Award Schedule Contract: Classic Medallics, Inc.,
                     Contract Numbers GS-07F-8451C and GS-07F-9862H

10/26/99   A995278   Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                     Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

10/29/99   A995315   Preaward Audit of Cost or Pricing Data: PerformTech, Inc., Solicitation Number
                     2FYG-JI-94-0004-B4

11/01/99   A995332   Preaward Audit of Cost or Pricing Data: Cupples Products, Inc., Solicitation
                     Number GS06P99GZC0309

11/04/99   A995272   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99   A995271   Preaward Audit of Architect and Engineering Services Contract: HLW
                     International LLP, Contract Number GS-02P-93-CUC-0062

11/29/99   A995304   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     October 1, 1999 Through September 30, 2004: Coastal Video Communications
                     Corp., Contract Number GS-02F-9309C

11/30/99   A995289   Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                     Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                     Number GS-02P-93-CUC-0062

12/08/99   A995330   Preaward Audit of Multiple Award Schedule Contract: Caswell International
                     Corporation, Contract Number GS-02F-0434D

01/07/00   A000821   Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                     02F-1407H: Development Dimensions International, Inc.

01/11/00   A000819   Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                     Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                     93-CUC-0062

02/03/00   A000920   Preaward Audit of Multiple Award Schedule Contract: Sales and Management
                     Training, Inc., Contract Number GS-02F-9319C

02/08/00   A995167   Price Adjustments on Multiple Award Schedule Contract: National Education
                     Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period March
                     1, 2000 Through March 31, 2000




                                                                            Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


02/15/00       A40910          Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                               Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00       A000923         Preaward Audit of Multiple Award Schedule Contract: Shamrock Scientific
                               Specialty Systems, Inc., Contract Number GS-14F-9732C

02/18/00       A000799         Postaward Audit of Cost or Pricing Data: Montgomery KONE, Inc., Contract
                               Number GS06P99GZC0306

02/23/00       A000937         Audit of Termination Claim: CJP Contractors, Inc., Contract Number GS-
                               11P93MKC0081

03/02/00       A000934         Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                               Inc., Contract Number GS-14F-0150D

03/06/00       A000948         Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                               Number GS-14F-0161D

03/06/00       A000963         Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                               96-DTC-0033

03/09/00       A000911         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                               February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                               Contract Number GS-14F-9734C

03/10/00       A000936         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                               February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc., Contract
                               Number GS-14F-0177D

03/29/00       A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                               Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                               March 8, 1991 Through February 29, 1996

03/29/00       A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                               Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                               Period March 1, 1996 Through April 30, 1998

03/31/00       A000955         Review of Productivity Refund for the Voyager Fleet Services Card

04/04/00       A000943         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/05/00       A995244         Interim Postaward Audit of Multiple Award Schedule Contract: Corporate Systems
                               Centre of Torrance, Contract Number GS-35F-4188D




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


04/13/00   A000972   Preaward Audit of Multiple Award Schedule Contract: Medical Plastics Laboratory,
                     Inc., Contract Number GS-02F-9315C

04/17/00   A000889   Preaward Audit of a Claim for Increased Costs: Italian Marble and Tile Company,
                     Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                     U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

04/25/00   A000975   Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                     Contract Number GS-14F-0193D

05/02/00   A000918   Preaward Audit of a Claim for Increased Costs: Morrow-Meadows Corporation,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/08/00   A000944   Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company,
                     Inc., Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building &
                     U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/11/00   A000950   Preaward Audit of a Claim for Increased Costs: Moon and Crockett Plumbing
                     Corporation, Subcontractor to Ray Wilson Company, Ronald Reagan Federal
                     Building & U.S. Courthouse, Santa Ana, California, Contract Number GS-09P-95-
                     KTC-0012

05/11/00   A000993   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

05/16/00   A000982   Preaward Audit of Multiple Award Schedule Contract: C & E Services, Inc.,
                     Solicitation Number 7FXG-W7-99-6813-B

05/16/00   A001007   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Franklin Covey, Contract Number
                     GS-14F-9729C

05/18/00   A000961   Preaward Audit of a Claim for Increased Costs: Washington Iron Works,
                     Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

05/18/00   A001009   Limited Postaward Audit of Multiple Award Schedule Contract: Day Runner,
                     Incorporated, Contract Number GS-14F-0193D

05/18/00   A42123    Postaward Audit of Multiple Award Schedule Contract: Coulter Source, Inc.,
                     Contract Number GS-00F-2383A

05/26/00   A000853   Preaward Audit of a Claim for Increased Costs: Ray Wilson Company, Ronald
                     Reagan Federal Building & U.S. Courthouse, Santa Ana, California, Contract
                     Number GS-09P-95-KTC-0012




                                                                          Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


06/01/00       A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                               Triangle Project

06/27/00       A000860         Interim Postaward Audit: Voyager Fleet Systems, Inc.’s Compliance with Fuel Tax
                               Requirements under Contract Number GS-23F-98006

06/30/00       A001000         Limited Scope Postaward Audit: AOC Solutions, Inc., Contract Number GS-23F-
                               98006

07/10/00       A000886         Preaward Audit of a Claim: Reliable Contracting Inc., Contract Number GS-02P-91-
                               CUC-0045

07/19/00       A000940         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                               Construction Company, Contract Number GS-02P-95-DTC-0014

07/27/00       A001028         Limited Review of Contract Extension Claim: International Services, Inc., Contract
                               Number GS-02P-94-CTD-0141

07/28/00       A000916         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/01/00       A001001         Preaward Audit of a Claim for Increased Costs: Aztec Fire Protection, Inc.,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012

08/03/00       A001057         Preaward Audit of Architect-Engineer Design Services Contract: Bargmann
                               Hendrie + Archetype, Inc., Solicitation Number GS-01P-99-BZC-0020

08/22/00       A001042         Audit of Billings Under Contract Number GS06P99GZC0305: Corrigan Company
                               Mechanical Contractors

08/22/00       A001074         Preaward Audit of Engineering Services Contract: Shooshanian Engineering, Inc.,
                               Solicitation Number GS-01P-99-BZC-0020

08/23/00       A001018         Preaward Audit of a Claim for Increased Costs: Borbon, Inc., Subcontractor to Ray
                               Wilson Company, Ronald Reagan Federal Building & U.S. Courthouse, Santa Ana,
                               California, Contract Number GS-09P-95-KTC-0012

08/24/00       A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                               to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

08/28/00       A001023         Preaward Audit of a Claim for Increased Costs: Cali-U.S.A. Acoustics, Inc.,
                               Subcontractor to Ray Wilson Company, Ronald Reagan Federal Building & U.S.
                               Courthouse, Santa Ana, California, Contract Number GS-09P-95-KTC-0012




68 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit
Report     Number                                  Title


08/31/00   A001044   Audit of Billings Under Contract Number GS06P99GZC0304: Fire Assurance, Inc.

09/26/00   A001080   Preaward Audit of Multiple Award Service Contract: West Group, Contract Number
                     GS-02F-0105D

09/27/00   A001107   Preaward Audit of Architect and Engineering Services Contract: Prad Group, Inc.,
                     Solicitation Number GS-04P-00-CXD-0032

09/28/00   A001051   Preaward Audit of Multiple Award Schedule Contract: Motorola, Inc., Solicitation
                     Number FCIS-JB-980001B-03-23-98




                                                                          Office of Inspector General 69
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of        Audit                                                                                Projected Final
Report         Number                                         Title                                  Action Date



Internal Audits
03/29/96       A42720          Audit of Accounting and Billing Controls Over the Public Buildings          11/15/01
                               Service, National Capital Region’s Reimbursable Work
                               Authorizations

12/02/96       A63019          Audit of the PAPCAP Price Adjustments                                       12/15/01

07/11/97       A60645          Audit of the Federal Protective Service’s Criminal Investigation            10/15/01
                               Program

01/30/98       A72443          Audit of the Megacenter Program, Federal Protective Service,                09/15/02
                               Public Buildings Service

03/30/98       A83007          Follow-up Review of the Contract Workload Management                        12/15/01

09/14/98       A70642          Audit of the Federal Protective Service’s Program for Upgrading             04/15/02
                               Security at Federal Facilities

09/24/99       A83602          GSA’s Information Systems Security Has Not Kept Pace With                   10/15/01
                               Increasing Internet and Intranet Risks

09/30/98       A72705          Arthur Andersen LLP, Fiscal Year 1997 Comments and                          11/15/01
                               Suggestions for Consideration (Management letter)

03/24/99       A995025         Audit of Security Measures for New and Renovated Federal                    01/15/03
                               Facilities

07/15/99       A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year                   04/15/02
                               1998 Financial Statement Audit

09/28/99       A995021         Audit of Management Controls for Non-Recurring Reimbursable                 01/15/02
                               Work Authorizations

09/30/99       A995016         Security Weaknesses Place GSA’s Local Area Networks at Undue                01/15/02
                               Risk

02/16/00       A995196         Audit of PBS’s Environmental Management Program                             10/15/01

03/28/00       A995175         Audit of the Federal Protective Service’s Contract Guard Program            06/15/02

03/31/00       A995010         PBS Needs to Complete STAR Development and Implement                        11/15/01
                               Management and System Controls to Fully Realize Improved
                               Capabilities

08/02/00       A995201         PricewaterhouseCoopers LLP Management Letter Fiscal Year                    05/15/03
                               1999 Financial Statement Audit



70 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of    Audit                                                                    Projected Final
Report     Number                                  Title                             Action Date



08/21/00   A000913   Management Control Review: Public Buildings Service, Office of    09/15/02
                     Property Disposal, Controls Over The Proceeds From Sale Of
                     Surplus Real Property

09/18/00   A000815   Systems Audit of Integrated Task Order Management System,         02/15/02
                     Federal Technology Service

09/19/00   A995288   Audit of Federal Technology Service’s Use of Multiple Award,      11/15/01
                     Indefinite Delivery Indefinite Quantity Contracts

09/27/00   A995309   Audit of Orders Placed by the Public Buildings Service Against Reviewing
                     Multiple-Award Construction Contracts                          documents
                                                                                   for possible
                                                                                        closure

09/28/00   A000810   Audit of the Public Buildings Service’s National Real Estate      11/15/01
                     Services Contracts




                                                                         Office of Inspector General 71
                                    Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                               • GSA also successfully negotiated a settlement and
                                                            collected approximately $128,000 in delinquent
Collection                                                  billings from NIB/NISH contractors running DoD’s
During the period April 1, 2001 through September 30,       Base Supply Centers.
2001, GSA efforts to improve debt collection and
reduce the amount of debt written off as uncollectible    • Persistent claims coordination among regional con-
focused on upgrading the collection function and            tracting officers, Treasury, and our Finance Centers
enhancing debt management. These activities includ-         continues to strengthen our claims collection efforts.
ed the following:
                                                          • Coordination of bankruptcy notification efforts has
• From April 1, 2001 through September 30, 2001,            improved between our Finance Centers.
  GSA Finance Centers referred over $1 million of           Bankruptcy notices received are now routinely
  delinquent non-Federal claims to the U.S.                 reported between the Finance Centers to allow for
  Department of the Treasury (Treasury) for cross-          timely follow-up action.
  servicing collection activities. FY 2001 collections
  on these claims, to date, exceed $2.1 million.          • Efforts continue to enhance the Accounts
  Administrative offsets have resulted in an additional     Receivable Claims System and the Billing
  collection of $500,000. GSA also collects non-            Accounts Receivable Tracking system, making them
  Federal claims using Pre-Authorized Debits (PADs).        better tools for collection technicians and enabling
  From April 1, 2001 to September 30, 2001, 14 PADs         them to provide better service to their
  totaling $5,802 were issued.                              customers.




Non-Federal Accounts Receivable

                                                   As of                 As of
                                                April 1, 2001      September 30, 2001           Difference

     Total Amounts Due GSA                      $20,559,020            $22,807,200             ($2,248,180)

     Amount Delinquent                          $12,249,865            $15,603,271             ($3,353,406)

     Total Amount Written
     Off as Uncollectible
     Between 4/1/01 and
     9/30/01                                       $565,839




72    Semiannual Report to the Congress
  Appendix V–Report over 6 Months Old with No Management Decision


Date of        Audit
Report         Number                                          Title


03/30/01       A010073         Preaward Audit of Multiple Award Schedule Contract: Canon U.S.A., Inc.,
                               Solicitation Number FCGE-C1-00-0001-B

Pursuant to Section 5(a)(10) of the Inspector General      36 as the contract vehicle for selling its
Act of 1978, the OIG must summarize each audit report      products and services to the government, we issued our
over 6 months old for which no management decision         report because the contracting officer could still benefit
has been made. During this period, management deci-        from the information. Canon’s estimated sales for the
sion was not achieved on one preaward audit of Canon       initial 5-year period under Schedule 36 are approxi-
U.S.A., Inc.                                               mately $420 million.

The purpose of this audit was to evaluate Canon’s sales    Several OIG attempts to achieve management decision
and pricing data for copier equipment and supplies in      were made. Although the FSS has acknowledged that
response to the company’s request for a                    a management decision is required for this audit report
corporate GSA contract. However, Canon withdrew its        and is past due, the contracting officer has not provided
corporate contract proposal, and instead, prepared a       documents necessary to achieve management
new offer, limited to product lines covered only by        decision. Established Agency policy requires that a
Federal Supply Schedule (FSS) 36 – office imaging and      management decision on the audit finding should be
document solutions. Our report presents the audit          achieved before proceeding with negotiations.
results assessing the acceptability of Canon’s sales and   However, FSS procurement officials have informed the
pricing data as a basis for negotiating fair and reason-   OIG that management decision documents will be for-
able prices. Despite the contractor’s decision to forego   warded after negotiations have been concluded and a
a corporate contract and instead elect to use Schedule     contract has been awarded.




                                                                                        Office of Inspector General 73
                                   Appendix VI–Reporting Requirements




The table below cross-references the reporting require-                        Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                         1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                               and the National Defense Authorization Act is also
addressed.     The information requested by the                                cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                              Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . .2, 19, 22

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 19, 22

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . .47

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .51

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . .2, 19, 22

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .42

     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .72

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .60




74 Semiannual Report to the Congress
Notes




        Office of Inspector General 75
                                       Notes




76 Semiannual Report to the Congress
------------   ~-




       Make
       like
       it's
       your
       money!
                    !Ill


        I          I          II



       To report suspected waste, fraud, abuse, or
       mismanagement in GSA, call your


       Inspector General's Hotlin
       Toll-free 1-800-424-5210
       Washington, DC metropolitan area
       (202) 501-1780

       or write: GSA, IG, Hotline Officer
                 Washington, DC 20405


       Office of Inspector General
       U.S. General Services Administration
